<html>
<title> - THE CRISIS IN ZIMBABWE AND PROSPECTS FOR RESOLUTION</title>
<body><pre>[Senate Hearing 110-682]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-682
 
                        THE CRISIS IN ZIMBABWE 
                      AND PROSPECTS FOR RESOLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2008

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
46-166 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                           --------          

               SUBCOMMITTEE ON AFRICAN AFFAIRS          

           RUSSELL D. FEINGOLD, Wisconsin, Chairman          

BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                             (ii)          

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Almquist, Hon. Katherine J., Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development, Washington, 
  DC.............................................................    11

      Prepared statement.........................................    12


Feingold, Hon. Russell D., U.S. Senator From Wisconsin...........     1


Frazer, Hon. Jendayi, Assistant Secretary, Bureau of African 
  Affairs, Department of State, Washington, DC...................     4

      Prepared statement.........................................     7


Gavin, Michelle D., Adjunct Fellow for Africa, Council on Foreign 
  Relations, New York, NY........................................    36

      Prepared statement.........................................    38


Isakson, Hon. Johnny, U.S. Senator From Georgia..................     4


Kerry, Hon. John F., U.S. Senator From Massachusetts.............    20


Melia, Thomas O., Deputy Executive Director, Freedom House, 
  Washington, DC.................................................    27

      Prepared statement.........................................    30


Nelson, Hon. Bill, U.S. Senator From Florida.....................    22


              Additional Material Submitted for the Record


Obama, Hon. Barack, U.S. Senator From Illinois, prepared 
  statement......................................................    48

                                 (iii)

  


                        THE CRISIS IN ZIMBABWE 
                      AND PROSPECTS FOR RESOLUTION

                              ----------                              


                         TUESDAY, JULY 15, 2008

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell 
Feingold, chairman of the subcommittee, presiding.
    Present: Senators Feingold, Kerry, Nelson, and Isakson.

        OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. The hearing will come to order.
    On behalf of the Senate Foreign Relations Subcommittee on 
African Affairs, I welcome all of you to this hearing on the 
crisis in Zimbabwe and prospects for resolution.
    I am pleased to be joined shortly by my colleague and 
ranking member of this subcommittee, Senator Isakson, and I 
will invite him to deliver some opening remarks when he 
arrives.
    I had hoped that today's hearing would not be necessary. 
The March 29th elections offered a chance to turn the page on 
what has become a very long and very tragic chapter in 
Zimbabwe's history. Although it fell short of international 
democratic standards, the African Union observer mission 
reported that the first presidential election in Zimbabwe 
expressed the general will of the people. But it took 5 weeks, 
after significant bloodshed and violence, to learn that Morgan 
Tsvangirai, leader of the opposition Movement for Democratic 
Change, had won 47.9 percent of the vote, while the incumbent, 
Robert Mugabe, won 43.2 percent.
    And then rather than respecting the will of the people, the 
Mugabe regime chose, as they have done time and time again, to 
repress it. In the weeks after the election, the Mugabe regime 
launched a deliberate campaign of state-sponsored violence 
against the MDC's members, supporters, and the families in an 
attempt to cling to power. Reports of killings, abductions, 
torture, and sexual violence are staggering. The MDC reported 
just last week that 129 of its supporters have been killed, 
1,500 detained, and another 5,000 remain missing since the 
March elections. It is no wonder that Mr. Tsvangirai decided to 
withdraw from the runoff of the Presidential election on June 
27 and take shelter in the Dutch Embassy. Unsurprisingly, in a 
climate of fear and sheer terror, Mugabe reportedly won 90 
percent of the vote.
    Once considered a liberator of his people, Mugabe has 
become increasingly despotic and his reign increasingly 
disastrous. According to the best estimate, Zimbabwe's gross 
domestic product has decreased over 40 percent in the last 
decade. Unemployment has risen over 80 percent and inflation is 
believed to be over 10.5 million percent. Yes; 10.5 million 
percent. Food shortages, land grabs, and repression have led 
more than 4 million people to flee into neighboring countries, 
destabilizing the wider region. And as Secretary Rice said in 
April, Mugabe has ``done more harm to his country than would 
have been imaginable.''
    There are some who suggest that now is the time for caution 
to avoid escalating the violence and unleashing civil war. 
However, Zimbabwe's descent has been underway for over a 
decade, and such a wait and see approach has only allowed this 
nightmare to grow. In the year 2000, I actually remarked on the 
Senate floor that we must act before Zimbabwe's problems become 
more complex and deeply entrenched. Eight years later, this 
remains the case.
    Now, I respect those who have been involved in genuine 
efforts to mediate a peaceful settlement in Zimbabwe. But open-
ended dialogue has largely been manipulated by Mugabe and his 
inner circle. Any serious negotiation between Mugabe and the 
opposition party will require a more robust mediation effort 
backed by united international support and leverage. I believe 
the current mediation team must be expanded beyond South 
Africa, to include representation from regional and 
international bodies. And I now call on the administration to 
press strongly for this expansion.
    The unwillingness of a few key regional leaders to 
criticize the regime for its abuses or consider punitive 
measures against those responsible has been deeply 
disappointing. This has led some to speak of a divide between 
the West and the rest, an unhelpful divide that Mugabe exploits 
through his rhetoric. China and Russia's veto last Friday of a 
robust U.N. Security Council resolution imposing international 
arms embargo and multilateral sanctions exposed the poisonous 
nature of this divide. And I am, of course, deeply disappointed 
by their veto, especially considering China's increasing role 
on the continent.
    I also find it discouraging that this veto was one of the 
new Russian President's first actions in Africa. Until we have 
a comprehensive, coordinated action by both regional and 
international leaders, including a combination of incentives 
and punitive measures, I fear the situation will only get 
worse.
    I welcome the efforts of the Bush administration thus far, 
but I think more has to be done to overcome this divide as we 
press for tighter sanctions on those individuals responsible 
for this crisis. Now is the time to scale up, not give up on 
global action. We must not allow Zimbabwe to fall out of the 
international spotlight as it has many times before.
    On Friday, Senator Isakson, the ranking member, who just 
joined us, and I, along with 16 of our colleagues introduced a 
resolution encouraging the administration's continued efforts 
and calling for more robust efforts by all regional 
international actors to bolster efforts to achieve a peaceful 
resolution to Zimbabwe's crisis. I am pleased that the Senate 
has now passed this resolution, which occurred yesterday.
    Today's hearing will assess the volatile situation there 
and what is needed to resolve the crisis. It will explore how 
U.S. policy can be strengthened to maximize leverage, and 
expedite a negotiated agreement that respects the will of the 
people.
    Now I would like to introduce our two distinguished panels 
so we can begin that discussion. First we will hear from 
Assistant Secretary of State Jendayi Frazer, who has been 
actively and directly involved in trying to bring an end to 
this crisis. We will also hear testimony from Katherine 
Almquist, the Assistant Administrator for Africa at the U.S. 
Agency for International Development, who will specifically 
address the humanitarian and development challenges faced by 
Zimbabwe.
    With more than 4 million Zimbabweans having fled the 
country, the humanitarian dynamic is directly linked to the 
political concerns. And both of these witnesses have, of 
course, testified before the Africa Subcommittee, and so it is 
my pleasure to welcome you back. I appreciate your willingness 
to testify today, as I know this is a particularly busy day at 
the State Department. I look forward to a frank and productive 
discussion.
    Our second panel features two nongovernmental experts who 
offer unique perspectives on the dynamics in Zimbabwe and 
potential for transformation. Mr. Thomas Melia is the deputy 
executive director of Freedom House, an organization that has 
reported on political and human rights violations in Zimbabwe 
for many years. Mr. Melia has long worked on issues of 
democracy in Africa and will provide us with his analysis of 
how the United States can best contribute to security, 
stability, and democracy in Zimbabwe and the wider region.
    We will also hear from Ms. Michelle Gavin, adjunct fellow 
for Africa at the Council on Foreign Relations. Most recently 
Ms. Gavin authored the council's special report on Zimbabwe, 
titled ``Planning for Post-Mugabe Zimbabwe,'' and has been a 
leading analyst of U.S. policy in Zimbabwe. Prior to her work 
with the Council on Foreign Relations, I was lucky enough to 
have Ms. Gavin as my foreign policy advisor here in the Senate. 
Ms. Gavin and I worked together for 6 years, and I am indebted 
to her for her work and her analysis on a very broad range of 
issues related to Africa and beyond.
    And I can tell you that she and I met with President Mugabe 
in December of 1999 in what had to be one of the most 
surprising and difficult meetings I have ever experienced in my 
career. This was before this all happened. And we were able to 
come back and say something really bad is about to happen here, 
and we have never forgotten it.
    So it is particularly pleasing for me, of course, to have 
her here to get her expert insights on how the United States 
tools and leverage can best be used to address the situation in 
Zimbabwe and to thank her again for her fabulous work for me.
    Thank you to all our witnesses for being here. I look 
forward to your testimony and our subsequent discussion.
    And now before the panel begins, I would like to turn to 
the distinguished ranking member, Senator Isakson for his 
opening comments.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman. First of 
all, I associate myself with every word of your statement. I 
was pleased to join you in the resolution that passed the 
Senate last night regarding Zimbabwe.
    And I welcome our witnesses today. I have had the privilege 
of hearing both of them testify before. They are a great asset 
to our State Department and are experts in this region.
    There is no more grave situation in my mind than what 
exists in Zimbabwe, and I think your statement to encourage the 
world community through both sanctions and leverage and 
pressure to try and bring about free and fair elections and a 
civilized society in that country is absolutely paramount. And 
I look forward to joining you, Mr. Chairman, in every effort we 
can make on this committee to make that happen.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, sir, and thank you for being 
so cooperative and helpful on this and other matters.
    Just so you know, apparently we will be having a vote at 11 
o'clock. I will simply recess the hearing for as long as it 
takes me to get over there and come back and vote.
    But subject to that, let us get started. Assistant 
Secretary Frazer, please.

 STATEMENT OF HON. JENDAYI FRAZER, ASSISTANT SECRETARY, BUREAU 
    OF AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Assistant Secretary Frazer. Chairman Feingold, Senator 
Isakson, I am pleased to testify before you today on the 
situation in Zimbabwe and the world's response. I thank you for 
your sustained strong support that has been so important in 
bringing this tragedy to the attention of a world that is 
beginning to join together for action.
    Our goals have been consistent to push for an end to the 
violence, to achieve a democratic transition that is consistent 
with the will of the people of Zimbabwe as expressed on March 
29, and to provide humanitarian assistance to the people of 
Zimbabwe.
    To achieve these goals, we are pursuing several lines of 
action, including seeking a strengthened negotiation 
facilitated by the Southern African Development Community, the 
African Union, and the United Nations, preparing for more 
robust targeted sanctions if the regime refuses to negotiate 
and continues its massive violations of human rights, 
collaborating with international NGO's and African civil 
society to ramp up humanitarian assistance to the population, 
and cooperating with international financial institutions, 
like-minded countries, and African leaders to isolate the 
Mugabe regime and prepare for economic recovery and social 
rebuilding once Zimbabwe is on a credible path of democratic 
transition.
    On June 27, the regime of Robert Mugabe in Zimbabwe 
conducted an election that by any standard was neither free nor 
fair. In a ruthless and methodical campaign of violence against 
the opposition, the regime succeeded in creating conditions 
that forced opposition leader Morgan Tsvangirai to withdraw his 
candidacy. The United States does not and will not accept the 
legitimacy of any process that does not reflect the will of the 
Zimbabwean people.
    The opposition Movement for Democratic Change, MDC, has 
explained why a free and fair election was impossible, citing 
state-sponsored violence and threats against MDC supporters and 
their family members, the Mugabe regime's attempt to 
circumscribe citizens' rights to express their views and freely 
elect their government, the regime's unlawful arrest and 
prohibition of MDC rallies making it impossible for the 
opposition to organize and campaign and for voters to safely 
and freely vote their conscience, partisanship of the Zimbabwe 
Electoral Commission, and lack of MDC access to the media. In 
addition, Mugabe's statements that an MDC victory would not be 
accepted, ZANU-PF's planned election rigging, and other factors 
all prevented a credible election.
    Indeed, in order to ensure that Tsvangirai would not win 
the runoff, the regime carried out a massive campaign of 
murder, harassment, and intimidation to claim victory in the 
June 27 runoff. We know that more than 100 people have been 
murdered, more than 3,000 have sought medical treatment for 
beatings and torture, and more than 30,000 have been driven 
from their homes because of the violence. Many Zimbabweans fled 
for their lives to neighboring states. At least two MDC 
Parliamentarians, winners in the March 29 elections, are 
missing and presumed dead. And a third MDC Parliamentarian's 
whereabouts are unknown. MDC Secretary General Tendai Biti was 
detained and charged with treason. Tsvangirai himself was 
detained four times and forced to seek protection in safe 
houses and the Dutch embassy.
    The United States has responded with aggressive regional 
and multilateral diplomacy, as well as targeted bilateral 
sanctions. President Bush and Secretary Rice have encouraged 
African leaders to take responsibility to prevent the further 
collapse of Zimbabwe.
    I attended the recent summit of the African Union 2 weeks 
ago in Sharm el-Sheikh, Egypt, in which 53 African Member 
States participated. The official theme of the summit was water 
and sanitation, but discussion of Zimbabwe dominated the 
agenda. Only a very few leaders publicly welcomed Mugabe. 
Little was said about Zimbabwe in public sessions, but there 
was substantial behind-the-scenes criticism of Mugabe and much 
discussion of Zimbabwe.
    The final AU statement on June 30 said that ``the election 
process fell short of accepted AU standards.'' The AU summit 
thus followed the statements of all the African observer 
missions, the Southern African Development Community, the Pan-
African Parliament, and the AU observer missions, which all 
made similar observations that the runoff election was not 
free, fair, or credible and took place in an environment of 
government-sponsored violence and intimidation. Importantly, 
the African Union resolution expressed its concern about the 
impact of the crisis in Zimbabwe on the stability of the 
region, highlighting the ``urgent need to prevent further 
worsening of the situation and with a view to avoid spread of 
conflict with the consequential negative impact on the country 
and the subregion.''
    Individual African leaders have stood up against Mugabe as 
well. Many have spoken out. These include Prime Minister Raila 
Odinga of Kenya, Zambian President Levy Mwanawasa, also 
chairman of the Southern African Development Community, 
Botswana President Ian Khama, former South African President 
Nelson Mandela, and Africa National Congress Party head Jacob 
Zuma. Sierra Leone and Liberia cosponsored the U.N. Security 
Council resolution in Zimbabwe, which regrettably did not pass 
in the Security Council on July 11.
    We commend them for their stance that reflects the views of 
a vast majority of the continent.
    On July 1, the United States circulated in the Security 
Council capitals the text of a draft chapter VII resolution on 
Zimbabwe that would have imposed a comprehensive arms embargo 
and an annex of individuals who would be subject to an asset 
freeze and a travel ban for having ordered, planned, or 
participated in acts of politically motivated violence. The 
resolution also called on the U.N. Secretary General to appoint 
a dedicated special representative for the situation in 
Zimbabwe who would support the negotiation process between the 
regime and the opposition. The U.S. formally introduced the 
draft resolution in the council on July 3 and held over four 
rounds of discussions on the text.
    Despite receiving nine votes to pass the resolution, it 
failed due to China's and Russia's vetoes. Thus, the U.N. 
Security Council missed the opportunity to support the 
courageous efforts of the Zimbabwean people to change their 
lives peacefully through elections and show the Mugabe regime 
that the international community means what it says in 
demanding an immediate end to the violence, reinstatement of 
humanitarian assistance, and the start of serious negotiations 
with the opposition leading to a solution that respects the 
will of the Zimbabwean people.
    This will not deter us since the U.N. action would have 
been in addition to unilateral financial and travel sanctions 
already applied by the United States against more than 150 
Zimbabweans who have undermined the country's democratic 
institutions and processes. We are adding to our list and will 
increase our enforcement efforts. These targeted measures offer 
a means of holding officials accountable for their actions 
without inflicting further hardship on the general population.
    What are the next steps? First, we will continue to isolate 
the regime until there is a democratic transition. Africans are 
starting to take a more public stance, criticizing Mugabe and 
the electoral process. The United States will continue its own 
sanctions and encourage others to impose additional sanctions 
to increase pressure on the Mugabe regime. Second, we will 
support and encourage expanded regional mediation. Finally, we 
will prepare for the day when the will of the Zimbabwean people 
is respected by supporting planning for economic recovery, 
social reconciliation, and rebuilding.
    As President Bush said to the United Nations, ``In 
Zimbabwe, ordinary citizens suffer under a tyrannical regime. 
The government has cracked down on peaceful calls for reform 
and forced millions to flee their homeland. The behavior of the 
Mugabe regime is an assault on its people.'' President Bush 
reiterated at the G-8 Summit that he cares deeply about the 
people of Zimbabwe and was extremely disappointed in the 
election which he has labeled a ``sham'' election.
    I will end by emphasizing that Mugabe's electoral sham has 
had the positive effect of galvanizing the world to act. We 
have witnessed in the past 3 weeks the United Nations, the G-8, 
the African Union, the European Union, and SADC all condemning 
the fraud and violence in Zimbabwe. Africans themselves are 
acting. The world has a precious window of opportunity increase 
the international pressure on this illegitimate government. I 
ask for your support as we look for ways to help keep that 
pressure on and end the nightmare that the proud and inspiring 
people of Zimbabwe have suffered for too long.
    Thank you.
    [The prepared statement of Ms. Frazer follows:]

Prepared Statement of Hon. Jendayi Frazer, Assistant Secretary, Bureau 
        of African Affairs, Department of State, Washington, DC

                              INTRODUCTION

    Chairman Feingold, Senator Isakson and members of the committee, I 
am honored to testify before you today on the situation in Zimbabwe and 
the world's response. I thank you for your sustained strong support 
that has been so important in bringing this tragedy to the attention of 
a world that is beginning to join together for action.
    Our goals have been consistent to: (1) Push for an end to the 
violence and to provide humanitarian assistance to the Zimbabwean 
people, and (2) achieve a democratic transition that is consistent with 
the will of the people of Zimbabwe as expressed on March 29. Ways to 
achieve these goals include: (1) An expanded and inclusive negotiation 
facilitated by the Southern African Development Community, the African 
Union, and the United Nations; (2) more robust targeted sanctions 
regime if the regime refuses to negotiate and continues its massive 
violations of human rights; (3) collaboration with international NGOs 
and African civil society, to ramp up humanitarian assistance to the 
population; and (4) cooperation with international financial 
institutions, like-minded countries, and African leaders to isolate the 
Mugabe regime and prepare for economic recovery and social rebuilding 
once Zimbabwe has achieved democratic transformation.
    On June 27, the regime of Robert Mugabe in Zimbabwe conducted an 
election that by any standard was neither free nor fair. In a ruthless 
and methodical campaign of violence against the opposition, the regime 
succeeded in creating conditions that forced opposition leader Morgan 
Tsvangirai to withdraw his candidacy. The United States does not and 
will not accept the legitimacy of any result that does not reflect the 
will of the Zimbabwean people.
    I want to walk through the key events of the last 3 months. The 
first round of voting in Zimbabwe took place on March 29, followed by 
an extended period of 3 weeks of calculated delay before results were 
released by the official electoral commission. When they were finally 
released, Movement for Democratic Change (MDC) Presidential candidate 
Morgan Tsvangirai was credited with over 48 percent of the vote 
compared to Mugabe's 43 percent (there was a third independent 
candidate as well). Since the Zimbabwe Electoral Commission announced 
that neither candidate secured the required 50-percent-plus-one vote to 
win the election outright, a runoff date was announced.
    On June 22, Tsvangirai withdrew from the runoff election due to the 
violence that had taken place against his party and its supporters that 
began on March 29. The MDC enumerated why a free and fair election was 
impossible, citing state-sponsored violence and threats against MDC 
supporters family members, the Mugabe regime's attempts to circumscribe 
citizens' right to express their views, and change the government, by 
making it impossible for the opposition to organize and campaign and 
for voters to safely and freely vote their consciences through unlawful 
arrests and prohibition of MDC rallies, partisanship of the Zimbabwe 
Electoral Commission, and lack of MDC access to the media. In addition, 
Mugabe's statements that an MDC victory would not be accepted, planned 
election rigging, and other factors also prevented a credible election.
    Indeed, in order to ensure that Tsvangirai wouldn't win the runoff, 
the regime carried out a massive campaign of murder, harassment, and 
intimidation to claim ``victory'' in the June 27 runoff. We know that 
at least 100 people have been murdered; over 3,000 have sought medical 
treatment for beatings and torture; and over 30,000 have been driven 
from their homes. Many Zimbabweans fled for their lives to neighboring 
states. At least two MDC parliamentarians--winners in the March 29 
elections--are missing, perhaps dead. And, a third MDC 
parliamentarian's whereabouts are unknown. MDC Secretary General Tendai 
Biti was detained and charged with treason. Tsvangirai himself was 
detained four times and forced to seek protection in safe houses and 
the Dutch Embassy.
    The Government of Zimbabwe continues its reign of terror against 
Internally Displaced Persons (IDPs). On June 26, several hundred IDPs 
arrived at the South African Embassy in Harare seeking shelter and 
assistance. On June 27, ``election day,'' following a reported 
arrangement between some international agencies and Zimbabwean 
authorities, the IDPs were relocated to a facility run by the Ministry 
of Labor and Social Welfare outside Harare. On July 3, over 300 
displaced MDC supporters arrived at U.S. Embassy Harare seeking 
shelter, food, medical care, and supplies. Mission staff, through 
considerable effort and despite the harassing presence of government 
security officers, were able to provide initial help. With only a 
limited Zimbabwean Government response and civil society and Western 
and international organizations trying to fill the void with inadequate 
resources, the situation with the IDPs continues to be bad.

                                ECONOMY

    It wasn't so long ago that Zimbabwe was a model in Africa for 
democracy and prosperity. This is a country that maintained steady 
economic growth, was building a middle class, and was educating its 
entire population to Africa's highest levels of literacy. It is a 
country that was succeeding and now is in the process of 
disintegrating.
    The economic figures are staggering. Over 80 percent of the country 
is unemployed. Inflation is the highest in the world by far. The 
Zimbabwean Government's own Central Statistical Office's most recent 
inflation estimate was 164,000 percent for February. There's an 
indication that the June rate may have reached 9,000,000 percent--
unimaginable numbers. This spring, the IMF forecast a 2008 annual 
growth rate of negative 4.5 percent. After close to 8 years of severe 
economic decline, a quarter of the population has left the country to 
seek better opportunities elsewhere, mostly in South Africa. The U.N. 
Development Index shows that Zimbabwe's statistics are worse today than 
in 1975, at the height of the country's war for independence.
    While the current violence has uprooted thousands and turned them 
into IDPs, this pattern of displacement is not new. In 2005, the 
government has also purposely destroyed an entire community near 
Harare. Operation Murambatsvina (Drive out the Trash), another brutally 
executed well-planned and executed security scheme, wiped out thousands 
of homes and made 700,000 homeless in one fell swoop. An additional 
700,000 workers once employed and living on commercial farms no longer 
have either jobs or homes.
    A year ago, the government tried in its peculiar way to vanquish 
hyperinflation by command. It ordered all stores to freeze prices 
immediately. It came as no surprise that the shelves were emptied 
quickly and many businesses were forced to close or go bankrupt. And it 
resorted to printing bills for reserves it didn't possess.
    Simply put, Zimbabwe has been and is collapsing. What is unusual, 
however, about the Zimbabwean case, is that there is no outside factor 
that has caused it--no natural disaster, no war, no international 
economic or financial phenomenon that we can often point to elsewhere 
in the world. Zimbabwe's collapse is entirely self-inflicted by the 
government's misrule over the course of many years.

                    HOW ZIMBABWE GOT TO WHERE IT IS

    How did Zimbabwe get to this point? Mugabe's economic policies in 
the 1980s were auspicious, reflecting an understanding that markets and 
trade-based growth were the country's foundation. A far-sighted 
education policy of promoting mass literacy and schooling through high 
school began to bear fruit. A new generation of Zimbabweans came into 
the marketplace literate, politically aware, and technologically savvy. 
They enjoyed a multitude of information sources, the Internet, domestic 
radio, international radio beamed by satellite and aired on FM, 
domestic and international television, and a healthy independent press.
    Early on, however, Mugabe gave the world a glimpse of his capacity 
for ruthlessness against his own people. Mugabe's base has always been 
among the majority Shona-speakers. His rival for liberation leadership, 
Joshua Nkomo, drew his support from the minority Ndbele speakers, 
centered in the country's southwest. Determined not to brook any 
serious opposition, the government's security forces planned and, 
working with North Korean advisors, executed a calculated campaign 
against the Ndbele, killing as many as 20,000.
    By the 1990s, ZANU-PF was evolving from a people's liberation 
movement into an entrenched and corrupt elite. The turning point came 
in 2000, when the government lost a referendum on a constitutional 
revision that would have substantially expanded the Presidential 
authority. By all accounts, the rejection took the government and ZANU-
PF by complete surprise, so isolated had they become from ordinary 
Zimbabweans.
    The new generation of well-educated Zimbabweans promoted by 
Mugabe's education policies was sophisticated, well-informed, and 
hungry for new political leadership. They joined hands with labor, 
churches, and civil society organizations to create the Movement for 
Democratic Change (MDC). The MDC's initial success prompted the 
government to respond forcefully to hold on to power.
    ZANU-PF answered the MDC challenge with every weapon characteristic 
of a police state. It passed new laws limiting political activity and 
restricting the media. There was an organized campaign of intimidation 
and violence against opposition leaders and supporters. So-called ``war 
veterans'' led invasions of commercial agricultural lands, occupations 
that would within a few years destroy most of the country's 4,000 
highly productive farms that had been the backbone of the nation's 
economy and had fed the entire region of southern Africa.
    These brutal tactics succeeded in maintaining ZANU-PF in power. 
ZANU-PF won parliamentary elections by a small margin in late 2000. In 
2002, Mugabe would claim a highly disputed victory. But the political 
victories came at a huge price as the economy went into a tailspin 
where it has stayed ever since. The government's inability to reverse 
the economic disaster has been its undoing and to this date, it has 
shown no sign of taking serious, realistic measures to halt a decline 
into chaos.

                           GOVERNMENT EXCUSES

    When faced with criticism at home or abroad, the Mugabe regime has 
a long habit of generating excuses. After the land seizure in 2000, 
officials rejected claims of a steep decline in food production, then 
later accepted them but blamed it on drought conditions. There actually 
was a drought, so the partial truth made the excuse more plausible.
    The government also has blamed foreign conspiracies for the 
faltering economy. Targets have included the British Government, the 
International Monetary Fund (IMF), and an alleged plot to bring down 
the regime. Sanctions imposed by the U.S. and U.K. governments, 
although carefully targeted to affect only the regime's elite, have 
provided fodder for the foreign conspiracy mindset, and been sold to 
the people as evidence that the West is trying to bring down the regime 
by wrecking the economy. All of these excuses indicate an isolated 
regime cut off not only from most of the world, but from the reality of 
the conditions affecting its own people as well as Zimbabweans' 
expressed desire for change.

                         CURRENT U.S. RESPONSE

    The United States has responded with aggressive regional and 
multilateral diplomacy as well as targeted bilateral sanctions. 
President Bush and Secretary Rice have encouraged African leaders to 
take responsibility to develop African solutions to the collapse of 
Zimbabwe. I attended the summit of the African Union 2 weeks ago in 
Sharm el-Sheikh, Egypt, in which 53 African Member States participated. 
The official theme of the summit was water and sanitation, but 
discussion of Zimbabwe dominated the agenda. Only a very few leaders 
publicly welcomed Mugabe. Little was said about Zimbabwe in public, but 
there was substantial behind-the-scenes discussion.
    The final AU statement on June 30 said that ``the election process 
fell short of accepted AU standards.'' The Pan-African Parliament (PAP) 
made a similar observation in its interim statement the same day, 
saying that the elections were not free, fair, or credible. 
Importantly, the African Union resolution expressed its concern about 
the impact of the crisis in Zimbabwe on the stability of the region, 
highlighting the ``urgent need to prevent further worsening of the 
situation and with a view to avoid spread of conflict with the 
consequential negative impact on the country and the subregion.''
    Individual African leaders have spoken out as well. Prime Minister 
Raila Odinga of Kenya has urged the AU to suspend Mugabe and send 
peacekeeping forces to Zimbabwe. Zambian President Levy Mwanawasa, 
chairman of the SADC, has called the situation in Zimbabwe an 
embarrassment to southern Africa and said ``it is scandalous for the 
SADC to remain silent.''
    Former South African President Nelson Mandela called the situation 
``a tragic failure of leadership.'' And ANC party head Zuma said after 
the extended delay in announcing the March 29 results: ``It's not 
acceptable. It's not helping the Zimbabwean people who have gone out to 
. . . elect the kind of party and Presidential candidate they want, 
exercising their constitutional right.''
    On June 23, the Security Council unanimously adopted a Presidential 
Statement (PRST) that condemned the preelection violence that made it 
impossible for free and fair elections to take place. The statement 
also expressed the Council's concern over the impact of the situation 
in Zimbabwe on the wider region. It called on the Zimbabwean Government 
to cooperate in regional mediation efforts that would allow a 
government to be formed and to permit humanitarian organizations to 
resume their services.
    On June 27, after U.N. Security Council consultations on Zimbabwe, 
members of the Council authorized Ambassador to the U.S. Mission 
Khalilzad, in his capacity as President of the Security Council, to 
make a statement to the press reaffirming the Council's June 23 
statement and its intention to come back to the issue in the coming 
days.
    On July 1, the United States circulated in U.N. Security Council 
capitals the text of a draft chapter VII resolution on Zimbabwe that 
would impose a comprehensive arms embargo and an annex of 12 
individuals who would be subject to an asset freeze and a travel ban 
and asset freeze on those designated as having ordered, planned, or 
participated in acts of politically motivated violence. The resolution 
had an Annex of 14 individuals who would be designated upon adoption of 
the resolution, with Robert Mugabe at the top of the list. The 
resolution also called on the U.N. Secretary General to appoint a 
dedicated Special Representative for the situation in Zimbabwe, who 
would support the negotiation process between the regime and the 
opposition. The U.S. formally introduced the draft resolution in the 
Council on July 3 and held over four rounds of discussions on the text.
    Despite receiving nine votes to pass the resolution, it failed due 
to China's and Russia's vetoes. Thus, the U.N. Security Council missed 
the opportunity to support the courageous efforts of the Zimbabwean 
people to change their lives peacefully through elections and show the 
Mugabe regime that the international community means what it says in 
demanding an immediate end to the violence, reinstatement of 
humanitarian assistance, and the start of serious negotiations with the 
opposition leading to a solution that respects the will of the 
Zimbabwean. This will not deter us, since the U.N. action would have 
been in addition to unilateral financial and travel sanctions applied 
by the U.S. against more than 150 Zimbabweans who have undermined the 
country's democratic institutions and processes and entities they 
control. These targeted measures offer a means of holding officials 
accountable for their actions without inflicting further hardship to 
the general population.

                               NEXT STEPS

    What are the next steps?: (1) We will continue to isolate the 
regime until there is a democratic transition; Africans are starting to 
take a more public stance, criticizing Mugabe and the electoral 
process; the United States will continue its own sanctions and 
encourage others, especially the European Union, to impose additional 
sanctions to increase pressure on the Mugabe regime; (3) we will 
support and encourage regional mediation. Finally, we will prepare for 
the day when the will of the Zimbabwean people is respected by 
supporting planning for economic recovery, social reconciliation, and 
rebuilding.
    As President Bush said to the United Nations, ``In Zimbabwe, 
ordinary citizens suffer under a tyrannical regime. The government has 
cracked down on peaceful calls for reform and forced millions to fell 
their homeland. The behavior of the Mugabe regime is an assault on its 
people.'' President Bush reiterated at the G-8 summit that he cares 
deeply about the people of Zimbabwe and was extremely disappointed in 
the elections which he has labeled as ``a sham.''
    I will end by emphasizing that Mugabe's electoral sham has had the 
positive effect of galvanizing the world to act. We have witnessed in 
the past 3 weeks the United Nations, G-8, African Union, European 
Union, and SADC all condemning the fraud and violence in Zimbabwe. 
Africans themselves are acting. The world has a precious window of 
opportunity to increase the international pressure on this illegitimate 
regime. I ask for your support as we look for ways to keep that 
pressure on, and end the nightmare that the proud and inspiring people 
of Zimbabwe have suffered for too long.

    Senator Feingold. Thank you, Assistant Secretary Frazer.
    Ms. Almquist.

      STATEMENT OF HON. KATHERINE J. ALMQUIST, ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Ms. Almquist. Thank you, Mr. Chairman and Senator Isakson, 
and members of the committee for the opportunity to testify 
today on the grave situation in Zimbabwe. I have submitted a 
longer written statement that I would request be added to the 
record.
    Zimbabwe has reached a tipping point as the Mugabe regime 
is faced with the daunting multifaceted socioeconomic and 
political crisis. USAID is strengthening democratic forces and 
institutions, contributing to heightening pressure on the 
Mugabe regime, and providing humanitarian assistance to those 
made vulnerable by a decade of government mismanagement and 
abuse.
    USAID engagement is more important than ever as the nation 
sits on a knife's edge following the conclusive March 29 
harmonized elections, the post-election violence, and the 
widely discredited elections that illegitimately left Mugabe 
holding power. Deep fissures in ZANU-PF, increasing pressure 
from regional and international governments, and strengthening 
civil society institutions will hopefully lead to a 
transitional government for a populace hungry for a more 
accountable and responsible government and a return to 
prosperity.
    The socioeconomic and political environment has 
significantly deteriorated in the past several months. The food 
security outlook, exacerbated by heavy rains and gross economic 
mismanagement, is dismal. One-third of the population required 
food aid this past year, and the need is likely to increase in 
August and through the next hunger season.
    The political environment remains highly restrictive and 
polarized. ZANU-PF's campaign of intimidation and violence has 
led to a growing number of displaced persons. In the past, the 
regime targeted key activists and opposition leaders, but it is 
now unleashing violence on anyone suspected to be an MDC 
supporter as well.
    At the same time, a politically controlled security and 
justice system is conducting unlawful and arbitrary arrests and 
indiscriminately applying the law. Freedom of speech, movement, 
and assembly are severely curtailed.
    Blatant disregard for economic tenets have resulted in an 
inflation rate of now over 10 million percent as of July 2008, 
a rapidly shrinking GDP, expected to decline by 7 percent this 
year, and basic commodity shortages.
    Out-migration of skilled professionals continues unabated, 
hollowing out education and health care systems and capacity of 
the government, the private sector, and NGO's to provide 
essential services. Drugs and health care commodities are in 
short supply and basic services are either unaffordable or 
unavailable.
    USAID assistance is pivotal to restore good governance and 
economic prosperity and to provide for the needs of those most 
adversely affected by the crisis. USAID programs support 
prodemocracy forces, including the democratic opposition, to 
pressure the regime for change and to enhance democratic 
entities' ability to participate effectively in the transition 
process and future governance. Restoration of rule of law and 
democratic freedoms remain core program elements. Food and 
nonfood humanitarian assistance, including livelihood support 
and water, sanitation, and hygiene interventions, help meet the 
critical needs of the most vulnerable.
    In addition, the USAID program provides for the immediate 
needs of those displaced or injured by political violence. HIV/
AIDS prevention, care and treatment initiatives, inclusive of 
family planning and TB and coinfection interventions, are also 
critical elements of the USAID program to address an HIV 
prevalence rate of 16 percent and the needs of approximately 
1.3 million orphans and vulnerable children.
    In the event of political change, USAID would adjust its 
program focus to rebuild tattered democratic institutions, 
restore rule of law and good governance, and build national 
consensus. The USAID program would also undertake economic 
stabilization support as a complement to the work of the 
international financial institutions and increase private 
sector and agricultural productivity.
    The social sector program would expand to better address 
the devastating effects of the HIV/AIDS pandemic and to more 
ably respond to health care system weaknesses and to malaria 
and maternal and child health needs.
    USAID would continue to be the principal provider of 
humanitarian assistance to help meet the food and nonfood needs 
of those hardest hit by the economic stabilization programs.
    To prepare to respond more fully, quickly, and 
collaboratively, USAID is participating in the World Bank's 
Multi-Donor Trust Fund to conduct sector-specific baseline 
analyses and to develop and create public debate on policy 
options and recommendations for a transition period.
    I would be happy to take additional questions that you 
have.
    [The prepared statement of Ms. Almquist follows:]

Prepared Statement of Hon. Katherine Almquist, Assistant Administrator, 
                Bureau for Africa, USAID, Washington, DC

    Mr. Chairman and members of the committee, thank you for inviting 
me to testify today about USAID's support for U.S. foreign policy goals 
in Zimbabwe. We appreciate the strong bipartisan support in Congress 
for improving the lives of people in this deeply troubled country.
    Since Zimbabwe's independence in 1980, USAID has partnered with the 
people of Zimbabwe to overcome many obstacles on the path to democracy 
and prosperity. Our commitment to this goal remains strong. Today, our 
programs provide critical support for the people of Zimbabwe as they 
pursue peaceful democratic change. USAID programs also provide crucial 
legal, medical, health, food and other humanitarian assistance to the 
millions of innocent victims of the regime's violence and 
mismanagement.
    Despite the current severe crisis facing the people and friends of 
Zimbabwe, we remain optimistic about the country's long-term potential 
and its prospects for positive change. When genuine reform does occur, 
our mission and partners stand ready to work with this committee to 
assist the new government and people in facilitating the country's 
successful transformation to its former status as a constructive and 
prosperous member of the Southern African Development Community (SADC), 
Africa and the greater international community.

                           CURRENT SITUATION

    Many difficult challenges confront Zimbabwe. The country faces what 
experts call the worst harvest in decades due primarily to government 
mismanagement. As a result, the survival of an estimated 5 million 
people--more than a third of Zimbabwe's population--will depend on 
imported food aid this year. At present, the next year looks equally 
bleak as agricultural inputs are scarce and farmers have little 
incentive to cultivate their land.
    State-sponsored violence and torture continue as ruling party 
militants systematically oppress the opposition party, the Movement for 
Democratic Change (MDC), and anyone else who does not comply with the 
autocratic demands of the Mugabe regime. According to human rights 
monitors, more than 100 MDC activists have been killed and thousands 
more have been seriously injured since the March 29 elections. 
Emergency care for many of these victims is provided by brave doctors 
and nurses who are often beaten themselves for performing this critical 
medical work.
    The violence has forced tens of thousands of Zimbabweans to flee 
their homes and villages. Most of these internally displaced persons 
(IDPs) have found temporary shelter with relatives and friends. Some 
IDPs have sought refuge in so-called ``safe areas,'' supposedly 
protected by negotiated security arrangements with government and 
United Nations (U.N.) agencies. However, state-sponsored militias are 
now attacking even these ``safe havens,'' sending victims running for 
their lives once again. With no one to turn to and no place to go, many 
Zimbabweans are opting to join the millions of their countrymen who 
have fled to an uncertain fate in neighboring lands.
    Compounding the humanitarian crisis, the Government of Zimbabwe 
(GOZ) suspended the operations of humanitarian NGOs in early June. 
Rigidly enforced by local government authorities, military and 
militias, this suspension means that NGO staff cannot even leave 
offices to assess the conditions and needs in most parts of the 
country. Actual aid provision is increasingly difficult. Even churches 
and faith-based organizations are afraid to provide aid and sanctuary 
to IDPs because of intimidation and fear of violent reprisals.
    In short, Mugabe's regime has unleashed organized brutality on an 
enormous scale, and largely prevented humanitarian aid from reaching 
the bloodied, hungry, terrorized, and displaced people of the country.

                        USAID PROGRAM RESPONSES

    USAID has aggressively responded to the deteriorating situation in 
Zimbabwe through both humanitarian assistance as well as our ongoing 
democracy and governance initiatives.

                        HUMANITARIAN ASSISTANCE

    USAID's Food for Peace program provided 175,000 metric tons of food 
worth $171 million to millions of the country's most vulnerable people 
in the past year. About half of this food was distributed through a 
consortium of NGOs known as C-SAFE, consisting of World Vision, CARE, 
and Catholic Relief Services. The other half was distributed by the 
U.N. World Food Program. Over half of all the food distributed by the 
U.N. World Food Program was given by USAID. In total, the U.S. 
Government contributed 72 percent of all food assistance given to 
Zimbabwe last year.
    About $115 million for food aid is already in the funding pipeline 
for this next hungry season. More is on the way, but we need GOZ 
assurances that our partners will have access to freely distribute this 
food to the most vulnerable communities. Since the beginning of 
Zimbabwe's deterioration in the year 2000, the U.S. has provided this 
country well over 1 million metric tons of food assistance.
    USAID's Office of Foreign Disaster Assistance has also provided 
$5.9 million in FY08 through several partner organizations including 
Mercy Corps, World Vision, OXFAM, FAO, OCHA, and IOM for nonfood relief 
items such as blankets, feeding utensils, personal hygiene supplies, 
water and sanitation improvements, emergency medical supplies, 
logistics support, and protection and coordination mechanisms. We are 
prepared to rapidly respond with more assistance if the situation 
deteriorates further.
    As part of its ongoing humanitarian effort, USAID also implements a 
$26 million, HIV/AIDS prevention, care, and treatment program to help 
Zimbabwe fight one of the most severe HIV and AIDS epidemics in the 
world. Even as the general health of the population declines progress 
is being made, as HIV prevalence has declined from 24 percent in 2001 
to 15.6 percent in 2007. Implemented through a variety of partner 
organizations, USAID's program elements include:

  <bullet> Prevention of Mother to Child Transmission;
  <bullet> Behavior Change Promotion;
  <bullet> Antiretroviral Therapy (ART) Services;
  <bullet> Commodity Logistics and Drug Procurement;
  <bullet> Testing and Counseling;
  <bullet> Palliative Care;
  <bullet> Orphans and Other Vulnerable Children.

    USAID efforts confront not only a huge disease burden, but also a 
badly deteriorated public health system. Thus, our programs are 
designed with intentional spillover effects to shore up overall systems 
within the public health sector, while we address specific HIV/AIDS-
related needs.
    Our NGO partners are the real heroes in the humanitarian sphere, as 
they struggle to maintain critical, life-saving assistance in spite of 
severe constraints. We want to express our deep appreciation and 
admiration for their excellent, unstinting efforts in meeting the 
critical needs of Zimbabweans, often at great risk of personal peril.
    The restrictions on aid agency operations are prohibiting us from 
responding in typical ways. Without permission to access displaced and 
vulnerable populations, the humanitarian organizations are handicapped. 
To create the ``humanitarian space'' necessary for aid operations, we 
are working with other donors to encourage the U.N. to strengthen its 
efforts to press the Government of Zimbabwe to put a stop to the 
violence and open up humanitarian access. We are hopeful that these 
U.N. interventions--on behalf of the donor and humanitarian community--
will soon bear fruit.

                  DEMOCRACY AND GOVERNANCE INITIATIVES

    The U.S. Government seeks the restoration of truly representative 
democracy and responsible governance for Zimbabwe. To that end, USAID 
programs have focused on restoring the rule of law, protecting human 
rights, fostering good governance, enhancing citizen participation and 
consensus-building, expanding media communication, strengthening civil 
society and democratic institutions, promoting transparent elections 
and supporting citizen oversight of the electoral process.
    USAID partners and programs provide technical assistance and other 
support to boost the capacity of nongovernmental actors and citizens to 
more actively participate in the debate on the future direction of the 
country. Within an extremely restrictive environment, these civil 
society actors are working to shape and strengthen democratic 
institutions in an effort to make them more responsive and accountable 
to Zimbabwean society.
    Although sometimes overshadowed by the country's continuing 
turmoil, USAID programs have made significant gains with civil society 
and the forces of democracy within Zimbabwe. In the historic March 29, 
2008, poll--the first ever defeat for Mugabe and his ruling ZANU-PF--
prodemocracy groups mobilized millions of Zimbabweans to ``get out the 
vote,'' leading to a remarkable expression of the people's choice under 
the difficult conditions prevailing at that time in the country. The 
ruling party was not able to rig the elections outright in part due to 
a USAID-funded ``parallel vote tabulation'' (PVT) that released results 
of sample-based counting in a rapid and transparent manner. Despite the 
difficult country conditions, this initiative was one of the most 
successful such undertakings of this PVT technology practiced anywhere 
to date.
    Legal and medical support to victims of state oppression, made 
possible largely through USAID assistance, have encouraged activists to 
continue pressing for democratic change. In addition, USAID supports 
programs that document human rights abuses, torture, and other crimes 
for future accountability and reconciliation.
    Initiatives to inform and mobilize regional and international media 
and civil society groups have resulted in increasing condemnation and 
isolation of the discredited Mugabe regime. This pressure has garnered 
increased room for engagement with SADC and the African Union, and 
increased prospects for a negotiated solution to the crisis. These 
gains need to be protected and advanced with continued USG support.

                      USAID'S CONTINGENCY PLANNING

    USAID stands ready with other donors to provide substantive 
development assistance to Zimbabwe once conditions permit. Such 
assistance would be premised on a new government which respects and 
demonstrates clear progress on the following common donor principles:

  <bullet> Full and equal access to humanitarian assistance;
  <bullet> Commitment to macroeconomic stabilization in accordance with 
        guidance from relevant international agencies;
  <bullet> Restoration of the rule of law, including enforcement of 
        contracts, an independent judiciary, and respect for property 
        rights;
  <bullet> Commitment to the democratic process and respect for 
        internationally accepted human rights standards, including a 
        commitment to freedom of expression, freedom of print and 
        broadcast media, freedom of assembly, and freedom of 
        association;
  <bullet> A commitment to timely elections held in accordance with 
        international standards, and in the presence of international 
        election observers.

    With the support of Congress, upon the return of democracy, we will 
seek to invest in Zimbabwe so that it can begin its process of 
stabilization and recovery. Our staff and partners are ready to engage 
with a new, reform-minded government and other donors to build a 
comprehensive reconstruction program. A Multi-Donor Trust Fund, 
administered by the World Bank, is already completing analyses on 
various social and economic sectors to give us a collective, 
coordinated roadmap for reconstruction to discuss with a new democratic 
government.
    However, if the violence does not stop, if aid organizations are 
not allowed to resume life-saving assistance, if widespread fighting 
escalates and forces mass population displacement, then the 
international community will be faced with a humanitarian disaster on a 
much larger scale than the serious situation which we already face.
    With our partners and donors, USAID is simultaneously working to 
both prevent a worst case scenario while responding to immediate needs. 
We do not know which turn Zimbabwe will take in its tumultuous journey, 
but USAID stands ready to support the people of Zimbabwe in realizing 
their rightful aspirations for liberation from the current brutal and 
despotic regime and in the transition to a new, more just and 
prosperous society.
    Mr. Chairman, this concludes my statement. I welcome any questions 
that you and other members of the committee may have.

    Senator Feingold. Thank you, Ms. Almquist.
    We will begin with a 7-minute round, and for all the 
Senators here, if and when the vote starts, I will just briefly 
recess the committee until I run over and vote and come back.
    Assistant Secretary Frazer, with the unfortunate veto by 
Russia and China of the U.N. Security Council resolution, how 
do you intend to generate support for an international arms 
embargo and multilateral sanctions against those responsible 
for these recent abuses? And what is the strategy moving 
forward to secure greater international pressure on Robert 
Mugabe, the individuals who are listed in the U.N. resolution, 
and more broadly, the relevant ZANU-PF?
    Assistant Secretary Frazer. Thank you, Senator.
    Right now we are focused on the regional effort. We will 
continue to work very closely with the European Union on 
increasing our sanctions. We are looking at additional new 
sanctions, both in terms of on individuals and also on 
government entities as well, so moving beyond the targeted 
sanctions. We are working with European countries to do the 
same.
    We are working with like-minded countries within Africa to 
increase their engagement with their subregional bodies, as 
well as with the African Union, to try to bring that additional 
pressure.
    We will have to work at the Foreign Minister and head of 
state level in Asia. Right now we do not see a lot of interest 
on the part of China and, of course, Russia, but in general, in 
Asia or in the Middle East to have true international 
sanctions, but we think that the Zimbabwe Government has been 
oriented more toward the European Union economies. And so we--
Africa, the United States, and Europe--can probably bring 
greater pressure.
    Senator Feingold. And then can you say more specifically 
about your particular efforts to engage African governments and 
secure their support? I mean, this is an area where there are 
some positive things, certainly the Zambian approach, Botswana 
approach, others. I understand the Angolan approach is more 
moderate and helpful than it used to be. And then there would 
be other obvious relevant countries. But I fear that a 
perceived divide again between the West and regional leaders 
could undermine a coordinated response. So could you say a 
little bit more about that?
    Assistant Secretary Frazer. Yes. I do believe that there 
has been a bit of sea change in the attitudes of African 
governments, especially in the southern Africa region, where 
there are many more countries in SADC who are openly 
criticizing President Mugabe. And that is critically important 
to bring the necessary pressure. But across Africa, you have 
many countries, especially those like Sierra Leone and Liberia 
that have themselves gone through turmoil and civil war, 
publicly calling for the Mugabe Government to stop the violence 
and have a credible electoral process to prevent a decline into 
civil war. And even Nigeria, which had its own flawed election, 
is saying that they are trying to take responsibility for that 
flawed election through their legal process.
    So I do think that there have been significant voices, and 
it matters for our policy because without the support, 
especially of the subregion, but of Africa as a whole, it is 
very difficult to mount the necessary pressure for a democratic 
transition in Zimbabwe.
    Senator Feingold. And I appreciate your reference to the 
sea change, which is largely in words, but it also has to be 
reflected, obviously, in actions. What actions do you think you 
can expect from these countries?
    Assistant Secretary Frazer. Well, the immediate issue are 
the transparency and the credibility of the negotiation 
process. I think we have all heard from the MDC that they would 
like that mediation to be broadened to include not only SADC, 
as led by President Mbeke, but also to have an African Union 
envoy included in the mediation. So I think that that is 
critically important.
    There is expected to be a SADC extraordinary session on 
Thursday of this week. We will be watching with interest to see 
what decisions are taken out of that SADC session. But I 
believe that the mediation process is probably the focal point 
at this point.
    Senator Feingold. I understand that so-called talks about 
talks, as they are called, between ZANU-PF and the opposition, 
MDC, resumed in Pretoria last week and will continue in Harare 
tomorrow. What role is the United States playing and what role 
will we be playing in these talks in the weeks ahead? What 
specific contributions can we make to the ongoing mediation 
efforts?
    Assistant Secretary Frazer. Well, we certainly should play 
a role and can be very constructive. We are playing a role on 
the outside of the talks in the sense that, as I mentioned, we 
have been pushing for greater transparency. We are clearly in 
touch with the MDC. We are also in touch with the Foreign 
Ministers and regional leaders of SADC and the African Union. 
We have not been party to, or seen, any of the negotiating 
documents, which is actually quite rare in Africa in conflict 
mediation. Normally we would be more informed of the specifics 
of what is taking place.
    So we have only heard from one side that in fact they are 
just talking about the conditions for holding talks. But we see 
in the South African media often the impression that there are 
more substantive discussions taking place, but we cannot 
confirm that. We certainly hope for greater transparency and 
for more engagement of the international community in general, 
but most certainly of the United States.
    Senator Feingold. What are the options for broadening the 
current mediation to include SADC, AU, and/or U.N. 
representation? And talk about the prospects for each of those 
institutions to become more involved, what role they can best 
play in a coordinated mediation effort.
    Assistant Secretary Frazer. Well, the African Union in its 
resolution took a decision that the mediation should be 
strengthened, but they asked SADC to go back and look at how 
they can strengthen it. So the meeting that is planned for 
Thursday will be critical.
    My expectation is it depends on the time line. If the South 
Africans are truly brokering a real agreement, i.e., 
substantive talks, which I do not believe is happening, but if 
that is happening, then there will not be an opportunity for 
really strengthening that mediation process.
    But I think the feeling of everyone at the African Union, 
or as reflected in their resolution, is certainly the feeling 
of the G-8 when they also called for a strengthened mediation, 
and of the Security Council when it took its formal statement 
on Zimbabwe. And that is the need for a more permanent presence 
who can negotiate some type of transitional government or 
coalition government. For example, there might be a secretariat 
much like Kofi Annan's mediation in Zimbabwe where there is a 
dedicated person who stays in Harare and works with the parties 
through the negotiation. I think that that is the idea of both 
a strengthened and expanded mediation.
    Senator Feingold. I thank you very much.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Ms. Frazer, you were at the Sharm el-Sheikh meetings a 
couple of weeks ago?
    Assistant Secretary Frazer. Yes.
    Senator Isakson. In your printed testimony, you say that 
although it was about water and sanitation, the most topic of 
conversation was Mugabe. Was Mugabe there?
    Assistant Secretary Frazer. Yes; he was.
    Senator Isakson. So these were backroom conversations, 
not----
    Assistant Secretary Frazer. In the hall, back room, in 
their formal but closed door sessions, Zimbabwe featured very 
prominently, as well as in many of the bilateral meetings which 
were taking place.
    Senator Isakson. What was the consensus of the comments?
    Assistant Secretary Frazer. Well, I think that the general 
consensus was that the June 27 election could not be considered 
credible, that it took place in an environment of intimidation 
and violence, that there is a crisis in Zimbabwe of a 
constitutional nature, and that there needed to be some type of 
negotiated outcome. The formal statement of the AU called for a 
government of national unity. People called it a government of 
national unity, a coalition government, a transitional 
government. So they did not define what the nature of that 
government would look like.
    But clearly, there was no one who accepted the legitimacy 
that Robert Mugabe won the runoff election. There was no 
congratulation. There was no acknowledgement. There was 
rejection of his claim to having been a victor on June 27.
    Senator Isakson. Actually the MDC candidate actually 
withdrew before the runoff. Is that not correct?
    Assistant Secretary Frazer. That is right.
    Senator Isakson. And that was because of the fear and the 
violence and intimidation.
    Assistant Secretary Frazer. That is right. The violence 
against his supporters, the dismantlement of his election 
machinery.
    Senator Isakson. They have a parliamentary form of 
government?
    Assistant Secretary Frazer. Yes.
    Senator Isakson. What percent of the Parliamentarians are 
MDC?
    Assistant Secretary Frazer. The MDC now enjoys a majority 
of the members of Parliament after the March 29 election.
    Senator Isakson. I notice Prime Minister Odinga of Kenya 
spoke out publicly. Has Mugabe's intimidation gone beyond his 
borders? Has there been any retribution against any of the 
leaders that have spoken out outside of Zimbabwe?
    Assistant Secretary Frazer. There was a bit of a diplomatic 
fray between Zimbabwe and Botswana in particular, but Mugabe 
made statements that were considered hostile to the neighboring 
countries who spoke out against him at the AU summit--Zambia, 
Botswana, and others. And so there is greater tension in the 
region, especially among the heads of state.
    Senator Isakson. Given the action of China and Russia in 
the Security Council, is it fair to say they are enablers of 
Mugabe?
    Assistant Secretary Frazer. Most certainly they enabled 
Mugabe. By preventing us from putting an arms embargo on the 
government when the government is using violence against the 
population and when civil society across southern Africa 
rejected the shipment of Chinese arms, you would have thought 
that they would have learned a lesson.
    Senator Isakson. Given that and given what has happened 
with the Chinese vis-a-vis Darfur, how do they talk about China 
in these conversations when you are at these meetings?
    Assistant Secretary Frazer. It is very mixed because many 
of them enjoy the loans that the Chinese are providing. They 
are seeking greater investment from China.
    On the other hand, I think that many believe that they are 
enabling authoritarian governments. Certainly African civil 
society has expressed continuing concern about China's role.
    I think that it is fair to say that China is finding its 
way in Africa, and I would, if I were advising, caution them 
that they should be on the side of the people of Africa. 
Obviously, supporting governments is important and necessary in 
their diplomatic relations, but they need to look at the 
Zimbabwean Government as one in which the people have largely 
rejected that leadership. A new day is coming in Zimbabwe, and 
China would want to be on the right side of the forces of 
democratic change.
    Senator Isakson. What is Russia's interest? Is it economic?
    Assistant Secretary Frazer. Well, I would certainly say 
that for those who opposed the U.N. Security Council 
resolution, that we should follow the money. I would certainly 
say that.
    Senator Isakson. That usually works.
    Assistant Secretary Frazer. But I am not sure of Russia 
because at the G-8 summit, the Russian President indicated his 
willingness to support further tougher measures against 
Zimbabwe, and then for Russia to veto the UNSC resolution, it 
was a bit of a whiplash for us. It is hard to explain.
    Senator Isakson. Ms. Almquist, did I hear you correctly 
that the infection rate is 16 percent of citizens with AIDS?
    Ms. Almquist. There is a 16-percent prevalence rate, yes.
    Senator Isakson. We are obviously talking about PEPFAR on 
the floor of the Senate today and the African AIDS program. Has 
our program been able to reach into Zimbabwe?
    Ms. Almquist. Oh, very much so. We have about an $18-$20 
million PEPFAR program there providing some level of care for 
HIV-infected and AIDS population. And we are able to see some 
success with that.
    It is a difficult environment to work in because of the 
general situation in the country and because we have to work 
with the Ministry of Health in order to carry out our PEPFAR 
programs. We work through partner organizations and we 
coordinate with the Ministry of Health. We think that there is 
much more that we can do, particularly if we succeed in getting 
a transition to a more reform-minded government, and we would 
hope very much to be able to scale up our assistance on HIV/
AIDS in that case.
    Senator Isakson. So the overall governmental situation may 
be somewhat of an inhibitor, but is Mugabe directly an 
inhibitor of the AIDS assistance?
    Ms. Almquist. In fact, the government suspended NGO 
activity, you may have heard, on June 4, and then subsequently 
clarified that they would permit NGO's to provide assistance 
for school feeding and for HIV clinics. And so we have an 
indication of support from Mugabe's government for those 
activities to go forward. Unfortunately, our partners have not 
felt that those instructions were communicated down through all 
the systems of government and that the space has not been there 
up till now to actually resume those activities.
    We think that in the coming week or 2, some of our partners 
will begin trying to resume HIV-related feeding programs and 
school feeding programs and some of the activities in that 
regard. So it will be tested very quickly here to see if, in 
fact, there is space even now for those programs to go forward.
    Senator Isakson. Thank you both.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    We generally go on the basis of seniority on the 
subcommittee, but if you want to defer to Senator Kerry, it is 
fine with me.
    Senator Bill Nelson. I will defer to you and ask you to do 
the same for me in future. [Laughter.]

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. I will try to minimize those opportunities.
    Thank you, and Mr. Chairman, thank you very much for 
convening this hearing. I would also like to thank our witness 
for coming here today.
    Madam Secretary Frazer, it is great to see you again. I saw 
you in Sharm el-Sheikh and we had a good dinner and an 
opportunity to talk about all of these issues. I appreciate 
your efforts that you were making there. I know you were 
working hard to move toward a positive resolution with respect 
to Zimbabwe.
    But I have to tell you, first of all, and share with my 
colleagues how disturbing it was to have Robert Mugabe at that 
conference. And then to watch some of the continent's leaders, 
including the host I might add regrettably, turn a kind of 
blind eye to Zimbabwe's agony except for the discussions that 
you described. And was there a lot of consternation? Yes. Was 
there a lot of backroom chatter? Yes. But when it came time to 
have the African Union respond, as I think and you think and 
many of us believe it should have responded, it did not. And 
that is the measure. That is the bottom-line test here.
    I could not help but feel, as I thought about what is 
happening on the continent there and in other places, that 
there is a sense that the world has lost its capacity for 
appropriate outrage. Darfur and Zimbabwe are two of many 
widespread violations of the norms of decency across the globe. 
And the words are beginning to fall flat, big-time flat. And 
the actions are just not there.
    For months now, Mugabe's thugs have been savaging 
opposition politicians and members of the opposition party and 
anyone else who dared to dream of a peaceful end to this reign 
of terror.
    I was in South Africa last November and I was particularly 
surprised to hear the bitter comments from people in South 
Africa about their own President's inaction with respect to 
Zimbabwe and Mugabe.
    During the last months, Zimbabwean villagers were literally 
handed bullets and told to choose between their lives and 
democracy. And in the process while the balloting was occuring, 
MDC believes that 113 of its supporters were killed, about 
10,000 were injured, more than 2,000 unlawfully detained and 
over 200,000 fled their homes. And frankly, the details are 
much more horrifying than those statistics convey because, as 
we know, women were burned to death. Young men were tortured 
and dismembered. The elderly were savagely beaten, and Mugabe 
had the audacity to say to the world, ``what do I care about an 
election? An `X' on a ballot means nothing against the power of 
a gun.''
    And against all of this, where are we? Where is the world? 
I mean, where are we? China and Russia get to veto this and 
sort of walk away, and there is no outrage and indignity even 
at the U.N. I guess all of us would hope that Morgan 
Tsvangirai's bold move to step back and not continue his 
candidacy in order to save lives would have mobilized the 
continent and the world. But it did not.
    And indeed, a day and a half after the outrage of this 
nonelection, Mugabe was allowed to walk in and walk around, 
albeit there were comments about him. But that is the full 
extent of it. A verbal tongue-lashing is simply not enough.
    On the plus side, at least Botswana, Tanzania, Zambia, 
Kenya, Angola, Liberia, and Sierra Leone's governments ended 
the conspiracy of silence that has surrounded such activities 
and they spoke out. But as you know, both SADC and the AU could 
do more.
    So let us lay on the table at this committee today the 
administration's best judgments about exactly what it is going 
to take here and what the possibilities are.
    Do you really see mediation changing this?
    Assistant Secretary Frazer. Can I answer that?
    Senator Kerry. Yes.
    Assistant Secretary Frazer. It depends on the quality of 
mediation and it depends on whether the March 29 result is 
respected in terms of the nature of the government that would 
come out of the mediation. I would believe that a mediation 
that led to some type of transitional government that could 
then prepare for elections so that we could get back to a 
democratic path is the right way.
    Senator Kerry. Why would mediation without adequate 
sanction leverage be able to do what the last election failed 
to do? Because Mugabe declared unequivocally that he will not 
give up power. If the world sort of walked away at the African 
Union and the world walked away on the election and he is 
sitting there with all the levers of power, why mediate?
    Assistant Secretary Frazer. Senator, the way I view it is 
that fundamentally we all agree that while the world has to 
pressure the Mugabe Government, the Zimbabwean people have to 
find a way ahead. And the fundamental problem here is that 
there is a leadership challenge within ZANU-PF. There is a 
succession problem. You have an old man clinging to power who 
refuses to move aside. This is a problem for his own party. And 
so part of it has to be his party has to deal with him.
    Senator Kerry. Can you shed more light on that? I know 
there is this struggle, and we have been hearing reports about 
the divisions within ZANU-PF. How deepare those, and what are 
you reading into that? If the world, particularly South Africa, 
were to suddenly speak up and offer a bolder set of sanctions, 
does that not encourage such divisions and perhaps isolate 
Mugabe within his own party?
    Assistant Secretary Frazer. It does, indeed. In fact, his 
main base of support right now is with the security sector, his 
army, his police, intelligence officers, the air force. Those 
are the supporters of the status quo, not sort of more moderate 
political civilian leadership. And so there is a fundamental 
divide in the party.
    The MDC itself is challenged with divisions. The MDC needs 
to stand strong for the will of the people and not just a seat 
in government.
    Senator Kerry. My final question is, What are we able to do 
to hasten that, encourage that, leverage it, and make it 
happen?
    Assistant Secretary Frazer. We will continue to lead on the 
international stage, but we also have to push for greater 
leadership within SADC itself. SADC is now divided, and the 
balance of opinion in SADC is against the Mugabe government, 
but there are many silent countries in SADC who are saying 
nothing while a few are fighting, some who were shielding 
Mugabe and others who were saying it is now time for him to be 
expelled from their council until there is a return to 
democracy. And so SADC's own house is problematic, but we are 
trying to push for those silent majority to also speak out.
    Senator Kerry. Well, thank you, Madam Secretary, and I want 
to thank my good friend and colleague for his courtesy.
    Thank you.
    Senator Feingold. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. First of all, I want to compliment 
both of you that you are giving straight answers and they are 
to the point. That has not been the experience of this Senator 
with a lot of the administration witnesses in this committee, 
as well as my other committees. So, thank you.
    Two weeks ago during the recess, in meeting with the 
government leaders in four southern Africa countries, I was 
struck, for example, with the President of Uganda and the 
President of Rwanda both basically punting the issue of Mugabe 
to the Southern African Development Community and basically 
punting to the Government of South Africa, whose leader is 
simply not putting the pressure on Mugabe.
    So my question is they are about to have an election, and 
if the leadership shifts to the one that we think is going to 
be elected President, do we expect a change in tune of South 
Africa toward how Mbeke, the present President, has been 
coddling Mugabe in Zimbabwe? That is the question.
    Assistant Secretary Frazer. Senator, I am optimist, and so 
I am very hopeful that we can actually move toward a return to 
democracy before early 2009 when that election in South Africa 
happens. But you are quite right that the head of the ANC, 
Jacob Zuma, who is expected to be the next President, if he 
stands for election, has taken a tough stance on Mugabe. And 
the ANC as a party has taken a tough stance against ZANU-PF and 
has clearly said thatit is now siding with MDC because MDC is 
siding with the people of Zimbabwe, and MDC is a party for 
change. And the people of Zimbabwe tried to elect that party on 
March 29. So, yes; we would expect a difference in policy 
between Jacob Zuma and the current mediation efforts of 
President Mbeke.
    Senator Bill Nelson. I certainly hope so, and is it not 
interesting that Nelson Mandela has been very critical of the 
Zimbabwean regime, as has Bishop Tutu, and yet President Mbeke 
takes a different tune?
    So when do you think that election--when is there going to 
be a change that Zuma possibly could take over, and do we have 
to wait that long? Are we really looking at that?
    Assistant Secretary Frazer. The South African election is 
in March 2009.
    As I said, I think that we can have a change in Zimbabwe 
sooner than that, and I think that we need to expand the 
mediation. I think that we can clearly get there. Part of it is 
ZANU-PF, as I mentioned to Senator Kerry, dealing with its own 
internal party struggles, their succession problems, but I 
definitely think that expanded, more transparent, credible 
mediation can bring Zimbabwe to a path of democratic change.
    Senator Bill Nelson. Well, I hope so.
    Now, let me point out another inconsistency. The Senator 
from Georgia just mentioned this very strong statement by the 
new Prime Minister of Kenya, Odinga. That occurred at the time 
that I held a joint press conference with him. Rather, he held 
the press conference and had me as part of it. And that was one 
of the questions to both of us. And I am telling you he did not 
spare anything. He let loose. And that was at the time that 
this African Union meeting was going on in Sharm el-Sheikh, and 
his President, lo and behold, did not say a word. So right 
there in a coalition Government in Kenya, you would think that 
there is a split on the idea of what to do with Zimbabwe. Tell 
us about that.
    Assistant Secretary Frazer. I am not sure that there is a 
split in terms of the substance of a policy toward Zimbabwe. I 
think the Kenyans are still working out the power-sharing 
arrangement and who gives instructions to the Foreign Minister 
between the President and the Prime Minister. So I think that 
that is a bit of an internal process working its way out. I do 
not think this is a substantive problem; I do not think anyone 
has tried to roll back the Prime Minister's statements on 
Zimbabwe. So I think that they are unified on policy.
    Senator Bill Nelson. That is good to hear.
    Did you see this Reuter's story, out right now, 
``Zimbabwe's Christian Churches Reject Mugabe Victory''?
    Assistant Secretary Frazer. Yes, Senator; I did see the 
story.
    Senator Bill Nelson. So, they have got enough courage to 
stand up and say that even with his goons running around.
    Assistant Secretary Frazer. Well, I think that that is the 
point. Civil society across Africa, in Zimbabwe, in the 
southern African region, in South Africa itself, across the 
entire continent are speaking out very clearly. There was a 
petition, as such, in the Financial Times with former heads of 
state, prominent civil society leaders across Africa, saying 
that it is unacceptable what is taking place in Zimbabwe. And 
so I do think that we are in a very different position than we 
were just a year ago.
    Senator Bill Nelson. Normally they would darken the lights 
when my time was up, but I still have 37 seconds left to go. 
Well, since the mike is still on, let me--let there be light. 
[Laughter.]
    Senator Kerry. It is the cost of fuel. [Laughter.]
    Senator Bill Nelson. My last comment is again a compliment 
to you all. Well, interesting, the lights turn on when I am 
ready to make a compliment to you. [Laughter.]
    Senator Bill Nelson. And that is, you know, I have been a 
lot of places on Planet Earth and the Government policies of 
the United States Government are not held in high esteem by the 
peoples in other countries, but there is a notable exception in 
Africa. And that is in large part because of the success of 
PEPFAR and the success of USAID in the feeding program that has 
to go hand in glove with the PEPFAR program.
    As a matter of fact, in Kenya, representatives from across 
the board, government and business, told me that they think 
that America's favorability rating is upward in the 1980s, of 
which I made a crack. If a certain person is elected President, 
I expect it will probably be in Kenya 99.9 percent.
    However, even in a country like Tanzania, our Ambassador, 
who is a political appointee but is doing a very good job, said 
that he thinks that the favorability because, in large part, of 
PEPFAR is upward of 60 percent toward America in that country.
    So I pass along that compliment to you.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Nelson.
    We will start a second round.
    Ms. Frazer, I would like to ask you to talk about the U.S. 
sanctions on Zimbabwe. I had hoped we would hear from Treasury 
on this, but they were apparently unable to send a 
representative.
    Give me your assessment of the effectiveness of our current 
sanctions regime, how much money has been frozen, where are the 
gaps, and how can these sanctions be more effective.
    Assistant Secretary Frazer. Thank you, Senator.
    I think that our sanctions regime is fairly robust. We have 
two types of sanctions on Zimbabwe, financial restrictions 
against individuals who are supporting the policies of Mugabe 
to undermine democratic institutions and processes in Zimbabwe. 
And those sanctions are against 135 people and 30 corporate 
entities. We also have travel restrictions on individuals who 
are undermining democracy in Zimbabwe. This includes members of 
Mugabe's inner circle and broader members of the government and 
some of their family members.
    We are looking to expand the category of Zimbabweans who 
are covered. We are also looking at sanctions on government 
entities as well, not just individuals.
    I cannot tell you how much money has been blocked. I think 
Treasury really has that expertise, and OFAC in particular 
would be able to answer that question. But I do know that any 
individuals who were carrying out financial transactions with 
Zimbabwe would be fined up to $500,000 for corporations and 
$250,000 for individuals. So there are fairly hefty sanctions.
    Also, it is a signal to international financial 
institutions not to do business with those on OFAC's list. Our 
banks are not allowed to do business with them, but other banks 
also look at that same list and decide on their own not to do 
so.
    Senator Feingold. And specifically about investment in 
mining in Zimbabwe, 2 weeks ago the media reported that some 
British-based mining firms are actually increasing investment 
in Zimbabwe which either directly or indirectly benefits the 
Mugabe regime. What steps is the United States taking to 
reverse this trend and will the proposed EU sanctions 
effectively regulate this investment?
    Assistant Secretary Frazer. OFAC and Treasury, under 
Treasury's direction, are looking into this very issue, and we 
are certainly considering in our next round of sanctions, which 
we are preparing now, to have an impact on any such 
investments.
    Senator Feingold. State Department officials have said 
publicly that we do not recognize the outcome of the June 27 
runoff election and thereby do not recognize the Mugabe 
government. What tools exist to formalize that nonrecognition, 
and would they be helpful?
    Assistant Secretary Frazer. We consider the outcome of that 
election as illegitimate, and so we will not accept the 
legitimacy of Robert Mugabe on the basis of that election. Our 
lawyers, however, are looking at issues of recognition and 
nonrecognition and the impact that nonrecognition would have on 
our ability to carry out our policy in Zimbabwe. And so we have 
not taken any decision as far as formal government recognition, 
but we have been very clear that the election itself was 
illegitimate and therefore has led to a constitutional crisis 
within Zimbabwe that needs resolution in favor of democracy.
    Senator Feingold. Now, when the Taliban came to power in 
Afghanistan in the 1990s, the Clinton administration announced 
that it would not recognize the regime. The State Department 
even ordered the Afghan Embassy here in Washington, DC, to be 
shut down in 1997.
    Do you think such high-level statements from the White 
House or diplomatic actions, such as revoking the credentials 
of the Zimbabwean ambassador to the United States would be 
helpful?
    Assistant Secretary Frazer. Again, I think that we are 
clearly looking at all of these options, but I think that we do 
not want to do anything that prevents our ability to support 
the people of Zimbabwe. So our direct engagement is going to be 
necessary, and so we are trying to look very carefully at how 
options of recognition, nonrecognition, recalling our 
ambassador, revoking the Zimbabwe ambassador's credentials 
would do on our ability to operate.
    Senator Feingold. I hope it is understood that these 
options are at least being considered.
    Assistant Secretary Frazer. Yes.
    Senator Feingold. Ms. Almquist, there has been substantial 
increase in U.S. humanitarian assistance to Zimbabwe in the 
last 2 years. Can you tell me specifically where that increased 
assistance is being directed and how would you assess its 
effectiveness?
    Ms. Almquist. Yes. Last year we provided 72 percent of all 
food assistance to Zimbabwe. In years prior to that, we were 
about 40 percent of the total food aid for the country. This 
year already, in fiscal year 2008, we have provided $120 
million in humanitarian assistance. Approximately $114 million 
of that is food assistance, and about $6 million is in nonfood 
assistance.
    Our support is for the most vulnerable and affected by the 
current political crisis and the economic deterioration in the 
country. We are concerned with mobile and vulnerable 
populations. We are concerned with school feeding with programs 
that complement our HIV/AIDS programs, et cetera.
    So when our partners can work, we think our assistance is 
very effective. It does not go through the government. It is 
handled by NGO partners and U.N. agencies. And so we have a 
high degree of confidence, when they can work, that it gets to 
needy populations. Right now, they cannot work, and so our 
concern for the humanitarian situation is growing daily.
    Senator Feingold. The State Department congressional budget 
justification has said that if a change in government does not 
take place in 2008, increased aid resources should be directed 
towards supporting opposition efforts to press for reforms. I 
would like to know what would this increase consist of and how 
is USAID currently working with the opposition, MDC, to 
strengthen that political party.
    Ms. Almquist. We have our democracy and governance program 
that is outside of humanitarian assistance, and PEPFAR, our 
largest sector of support, in Zimbabwe. In fact, we feel that 
most other areas of development assistance are too problematic 
at this point to engage. If we had a transition to a reform-
minded government of some sort, we would further strengthen our 
democracy and governance programs.
    We are working right now on democratic political processes. 
We are supporting democratic political parties, which is 
primarily the MDC, of course, and institutions of governance. 
We have provided critical support to the elections for March 29 
in particular, the Zimbabwe Elections Support Network and the 
parallel vote tabulation, which allowed us and the world to 
know that Morgan Tsvangirai did outstrip Mr. Mugabe in that 
election.
    We have U.S. support for civil society organizations. Right 
now, we have been supporting about 25 organizations. We will 
probably move to narrow our focus a bit on those organizations 
which can particularly work and operate in rural areas because 
we think that is the most critical going forward, to increase 
the demand for accountability for responsible governance, to 
work on civic participation in legislative processes.
    We are also working on parliamentary strengthening. As the 
Assistant Secretary mentioned, the MDC did win a majority of 
seats in the Parliament. So there are many new Parliamentarians 
for training, as well as the engagement of civil society in 
parliament.
    And then last, we are working on free and independent 
media. USAID provides support to VOA programming and 
broadcasts, which are critical for transmitting independently 
information about what is happening in the country, as well as 
supporting local township-level newspapers and training for 
journalists.
    We are also providing support for victims of the 
politically motivated violence in terms of legal assistance, 
psychosocial support, and medical care, and also for 
documenting the human rights abuses that are taking place.
    So we will continue to do those activities in the current 
environment. If there is a move and a transitional government 
that we can engage with much more broadly, then we will work on 
the issues of constitutional reform, electoral reform, 
restoring democratic institutions of governance in terms of our 
democracy and governance program, and we will also focus on 
economic stabilization and recovery with complementary 
humanitarian support in the meantime, and then expanding our 
health programs to complement the current HIV/AIDS work but 
much more broadly work on the health care system which is 
literally falling apart right now.
    Senator Feingold. Thank you.
    A vote has started. So to allow Senators to vote, we will 
briefly recess and return to this panel.
    [Recess.]
    Senator Feingold. We will call the committee back to order, 
and since the Senators were satisfied with the opportunity to 
ask questions, I want to thank the first panel again for all 
their responses and their testimony.
    And now we will go to the second panel. Thank you for 
joining us. Let us begin with Mr. Melia.

   STATEMENT OF THOMAS O. MELIA, DEPUTY EXECUTIVE DIRECTOR, 
                 FREEDOM HOUSE, WASHINGTON, DC

    Mr. Melia. Thank you, Mr. Chairman Feingold. Thank you for 
asking Freedom House to testify today.
    My remarks are based on my personal observations from a 
recent visit to Harare just before the March 29 elections and 
frequent communication that my colleagues and I have had with 
civil society partners in Zimbabwe over the last 2 and a half 
years
    When Ms. Almquist was talking about the large USAID- 
supported effort to strengthen civil society in Zimbabwe, she 
was talking largely about a program that we have been 
implementing these last 2 and a half years. In fact, in the 
month leading up to the March 29 election, we transferred about 
$750,000 worth of grants and material assistance to an array of 
25 or so civic groups that were mobilizing people to get out 
the vote and to monitor those elections. That assistance 
included things like satellite phones to communicate results 
from polling stations and bicycles for the observers to get out 
to those polling stations.
    I also want to begin by thanking you, Senator, for your 
leadership on the Zimbabwe issue. A lot of us in human rights 
community appreciate your efforts in this regard. And I want to 
thank you especially for meeting recently with several 
Zimbabweans that were in town with us and you took time out of 
your schedule to meet with them and listen to their story from 
Zimbabwe.
    With all that is going on in the world, Sudan and 
elsewhere, the subcommittee is correct to focus special 
attention on Zimbabwe today for at least these four reasons.
    The humanitarian situation in Zimbabwe is catastrophic and 
deteriorating daily. We have recited some of those statistics 
already today. I will not review them again. But it is clear 
that every day that Robert Mugabe remains at the helm is a day 
that Zimbabwe sinks noticeably deeper into the quagmire of 
hunger, disease, economic collapse, and the ruination of future 
generations.
    Second, the violent assault on the people of Zimbabwe, the 
country's constitution, and its electoral process by the Joint 
Operations Command in the implementation of the June 27 runoff 
constitutes a coup d'etat. This should already have led to 
Zimbabwe's suspension from the African Union and the invocation 
by the U.S. of section 608, as it is now called, in the foreign 
aid appropriation, the standard provision in U.S. foreign aid 
law that requires a cutoff of aid to any government installed 
by a coup.
    We all read the story in the Washington Post on July 5 by 
Craig Timberg describing the Joint Operations Command's 
military style plan to extinguish the opposition, code named 
CIBD for coercion, intimidation, beating, displacement.
    Now, the African Union's Charter on Democracy, Elections 
and Governance, adopted just last year in January 2007, makes 
clear that--and I am quoting now--``any refusal by an incumbent 
government to relinquish power to the winning party or 
candidate after free, fair and regular elections'' belongs in 
the same category as a ``putsche or coup d'etat'' or 
intervention by ``mercenaries, armed rebels or dissidents.'' In 
consequence, according to the AU's own charter, as soon as the 
Peace and Security Council of the AU would observe that there 
has been such a change in government in a state party, it shall 
suspend the state party immediately.
    While one can discuss how fair and regular were the 
elections in Zimbabwe, due to the behavior of the government, 
it is clear that the will of the people was expressed on March 
29 and is well known to the world. Neither Robert Mugabe nor 
ZANU-PF speaks any longer for the majority of the people of 
Zimbabwe.
    Third, the established institutions of the global 
international order are being directly challenged at present by 
this coup d'etat and the acquiescence in that coup by key 
global actors, including the Governments of South Africa, 
China, and Russia. Last Friday's double veto of a U.N. Security 
Council resolution reflects the growing antidemocratic 
assertiveness that we have seen on the part of the Governments 
of both Russia and China and the increasingly active global 
campaign they wage to lower the standards on human rights and 
democracy in international forums.
    Senator Isakson asked earlier about the Russian 
Government's motivation in all this. The Russian Foreign 
Ministry made it clear in a statement it issued on Saturday 
that Moscow's veto on Friday should be understood not only as a 
``principled position on Zimbabwe,'' but that it was also 
intended to be read much more broadly. The Russian statement 
said that ``the adoption of this document by the U.N. Security 
Council would have set a dangerous precedent, opening the way 
to the Security Council interfering in countries' internal 
affairs over various political events, including elections.''
    Now, while Friday's failure of the Security Council to act 
is an indicator of the deterioration of the ability of the U.N. 
to serve as a bulwark of democracy and human rights, we think 
that there are some other hopeful signs at present related to 
this situation.
    The decline in U.S. influence in these global institutions 
stems in equal measure from the present administration's policy 
of estrangement from the U.N., which has dissipated our 
country's ability to shape outcomes, also by the fecklessness 
of too many other democratic states who are not willing to 
confront bad behavior by their neighbors, and by the growing 
confidence and effectiveness of the world's dictators in 
seizing control of these bodies. So that while the American 
posture on Zimbabwe has generally been quite admirable, as 
President Bush and the Congress alike have stepped up to the 
challenge with unequivocal statements, making plans for the 
massive infusion of aid immediately upon the establishment of a 
legitimate government in Harare, it is clear that the U.S. has 
lost its ability to lead the Security Council to adopt even 
minimal sanctions against a regime as odious as the now 
illegitimate Government of Zimbabwe.
    Now, at the same time, the disarray on Zimbabwe within the 
African Union and SADC is a promising development. Just as 
inaction in one body at the global level is a bad sign, 
inaction in the regional and subregional institutions is 
actually a promising development because it marks an end to 
that conspiracy of silence that Senator Kerry spoke about a 
little while ago.
    Important African voices have been speaking out on the 
problem in Zimbabwe. For the first time ever, a SADC election 
observer delegation concluded that the elections did not 
represent the will of the people. And led by the President of 
Zambia, Dr. Mwanawasa, a growing chorus of African heads of 
state have spoken out in more and more compelling terms over 
the last few weeks. This is important and significant.
    The rising tide of African support for a democratic outcome 
in Zimbabwe, along with the rejection of the results of June 
27, should be as unsurprising as it is significant, and it is 
significant. It has implications beyond the present moment in 
Zimbabwe and may signal a renewed and genuine commitment to 
democratic norms in sub-Saharan Africa, a region that has, at 
least in its formal multilateral politics, hitherto rarely been 
outspoken on such matters.
    In the back of the printed testimony that you have before 
you, you will see two charts. There is a table that shows the 
overall average score of freedom in Africa rising gradually and 
steadily over the last 25 years, which contrasts with the 
decline during much of the same period by Zimbabwe where the 
scores have declined from a high of 3 on political rights and a 
4 on civil liberties to the point where in the last year 
Zimbabwe has joined the ranks of the world's most repressive 
regimes.
    What can we do? I will just say very briefly in conclusion 
that I would recommend six steps.
    Support a transition government in Zimbabwe rather than a 
government of national unity.
    No. 2, support the MDC for as long as they speak for the 
people of Zimbabwe. As Michelle Gavin, who is sitting next to 
me, has written recently, focus on Zimbabwe's people and not 
merely on the prominent political actors of the day.
    Third, support Zimbabwean civil society. Both Secretary 
Frazer and Ms. Almquist spoke to this in their presentations. 
Today in Harare there is being convened a national civil 
society consultative conference with a score or more of major 
Zimbabwean civic groups discussing how they can play a 
constructive role in effecting a transition arrangement to move 
toward a democratic regime in Zimbabwe, and USAID and the State 
Department should continue to support those efforts as they 
have up to this point.
    The United States should be poised to assist the transition 
government. You noted this earlier, Chairman Feingold. The 
administration has done well to request $45 million in funding 
to assist in the rehabilitation of Zimbabwe once a legitimate 
government comes into office. It is not too soon to convene 
expert groups to begin planning that transition, and that does 
not need to wait for the transition itself.
    Finally, I would say support and reward the African 
leadership on this transition. A lot has been discussed here 
already about those brave African leaders who are stepping 
forward. The State Department and even the Congress in its 
dealings with African counterparts can provide tangible and 
intangible rewards for the African leadership on these issues, 
meeting with them, bringing them to the White House, bringing 
them to the Capitol Building, making them welcome, treating 
them like friends and democratic allies, as well as by 
providing additional aid and cooperation to those governments 
that are stepping up and trying to change the tenor of intra-
African politics.
    I will be glad to respond to other questions. Thank you for 
this opportunity.
    [The prepared statement of Mr. Melia follows:]

   Prepared Statement of Thomas O. Melia, Deputy Executive Director, 
                     Freedom House, Washington, DC

    Chairman Feingold, Senator Isakson, other distinguished members of 
the Senate Subcommittee on African Affairs, thank you for inviting 
Freedom House to testify at today's hearing on the ``Crisis in Zimbabwe 
and Prospects for Resolution.''
    I am pleased to represent Freedom House here today. My remarks are 
based on personal observations from a recent visit to Harare, in the 
week prior to the March 29 elections; the frequent communication my 
colleagues and I have had on a near-daily basis with Zimbabwean civil 
society activists with whom we have partnered for 2\1/2\ years in 
efforts to enable the people of Zimbabwe to use peaceful political 
processes to effect positive change in the governance of the country; 
and the historical perspective provided by Freedom House's annual 
assessments of the state of political rights and civil liberties since 
prior to Zimbabwe's independence in 1980. While our analytic work on 
Zimbabwe is funded from private sources, I would note that our program 
work in Zimbabwe has been funded since 2005 by grants from the U.S. 
Agency for International Development, and by complementary grants from 
the Australian Agency for International Assistance (AUSAID) and the 
British Government.
    Senator Feingold, I want to begin by commending you for your 
leadership in seeking to foster democratic change for the people of 
Zimbabwe. Your tireless efforts, particularly in strategically 
communicating to countries throughout the AU, have helped to chip away 
at this considerable problem. The sense-of-the-Senate resolution that 
you and Senator Isakson shepherded to passage yesterday makes clear 
that the United States should support the Zimbabwean people and African 
diplomatic efforts to resolve the crisis in Zimbabwe, while also making 
clear that the U.S. should play a proactive role in facilitating. I am 
sure I speak for many colleagues in the human rights community when I 
say we appreciate very much your leadership on Zimbabwe.
    There are certainly other important, compelling crises in the world 
that cry out for our attention, even in Africa (as we are reminded by 
the arrest warrant that was requested yesterday by the chief prosecutor 
of the International Criminal Court against President Umar al-Bashir of 
Sudan, for the genocidal atrocities being waged by his government 
against the people of Dafur).
    Yet the subcommittee is correct to focus special attention on 
Zimbabwe today for at least these four reasons:
    The humanitarian situation in Zimbabwe is catastrophic and is 
deteriorating daily. Three socio-political indicators sum up the 
devastation wrought by the ZANU-PF government led by Robert Mugabe: The 
nation's currency has become worthless, with inflation now running at 
an annual rate of 10 million percent and banknotes legally expire 6 
months after they are printed; more than one-fifth of the country's 
population has fled to neighboring countries in the past 3 years; and 
the current life-expectancy of a male born in Zimbabwe is 33 years, one 
of the shortest in the world today (and down from 57 years in 1990). 
These are horrific statistics that speak to the urgent need for a new 
direction for this once prosperous nation of 12 million people.
    Last weekend brought an additional, telling data point: According 
to Saturday's edition of The Standard (of Zimbabwe), ``more than 80 
percent of the country's bakers have temporarily closed shop as flour 
shortages take a toll on the battered industry.'' International 
humanitarian assistance has been disrupted and blocked by the 
government in Harare, which last month has banned most international 
aid organizations from fulfilling their missions in Zimbabwe, leading 
to the destruction of millions of tons of food aid and the cutoff of 
medical assistance to as many as one-third of the country's population. 
Every day Robert Mugabe remains at the helm is a day Zimbabwe sinks 
noticeably deeper into the quagmire of hunger, spreading disease, 
economic collapse and the ruination of future generations.
    The violent assault on the people of Zimbabwe, the country's 
constitution and its electoral process by the Joint Operations Command 
in the implementation of the June 27 runoff election for the Presidency 
constitutes a coup d'etat. This should already have led to Zimbabwe's 
suspension from the African Union and the invocation by the U.S. of 
section 608 of P.L. 110-161, the standard provision in U.S. foreign aid 
appropriations requiring a cutoff of aid to any government installed by 
a coup. As reported in the Washington Post by Craig Timberg on July 5, 
the leadership of the Joint Operations Command designed and implemented 
a military-style plan to extinguish the opposition, code named ``CIBD'' 
for ``Coercion, Intimidation, Beating, Displacement.'' While the U.S. 
is not currently providing any assistance to the Government of 
Zimbabwe, the formal invocation would make clear the American view of 
the illegality of Mugabe's hasty inauguration on June 28. The African 
Union's Charter on Democracy, Elections and Governance, adopted in 
January 2007, makes clear--in Chapter 8, concerning ``Sanctions in Case 
of Unconstitutional Changes in Government,'' in Article 23--that 
``[a]ny refusal by an incumbent government to relinquish power to the 
winning party or candidate after free, fair and regular elections,'' 
belongs in the same category as a ``putsche or coup d'etat'' or 
intervention by ``mercenaries, . . . armed rebels or dissidents . . .'' 
In consequence, according to the AU's Charter on Democracy, Elections 
and Governance, as soon as the Peace and Security Council of the AU 
``observes'' that there has been an unconstitutional change in 
government in a State Party, it shall suspend the State Party 
``immediately.'' While one can discuss how ``free, fair and regular'' 
were the elections in Zimbabwe, due to the depredations of the 
government, the will of the people was expressed on March 29 and is 
well known to the world. Neither Robert Mugabe nor ZANU-PF speaks any 
longer for the majority of the people of Zimbabwe.
    The established institutions of the global international order are 
being directly challenged by this coup d'etat and the acquiescence in 
that coup by key global actors, including the Governments of South 
Africa, China, and Russia. Last Friday's double veto of a U.N. Security 
Council resolution made clear that the international community is 
simply not able to respond in a serious manner to one of the crudest 
campaigns against the will of a nation's people the world has seen in 
some time. The resolution would have imposed global arms sanctions on 
Zimbabwe, and travel and financial restrictions on 14 senior regime 
officials with the bloodiest hands. The resolution secured the 
necessary majority of 9 out of 15 states to be adopted, but was 
defeated by vetoes from China and Russia, while Libya and Vietnam also 
voted with South Africa against the measure. These vetoes reflect the 
growing antidemocratic assertiveness that we have seen on the part of 
the governments of both Russia and China, and the increasingly active 
global campaign they wage to lower the standards on human rights and 
democracy as addressed in international forums.
    The Russian Foreign Ministry made it clear that Moscow's veto on 
Friday should be understood not only as a ``principled position on 
Zimbabwe,'' but that it was also intended to be read much more broadly. 
``[T]he adoption of this document by the U.N. Security Council would 
have set a dangerous precedent,'' said the statement released by the 
Russian Foreign Ministry on July 12, ``opening the way to the Security 
Council interfering in countries' internal affairs over various 
political events, including elections . . .'' China is the principal 
supplier of military equipment to Zimbabwe's Government, and so may 
have cast its veto as much to sustain its export position as to make a 
comparable statement of diplomatic philosophy. The Government of South 
Africa, on the other hand, added another sordid act to its dismal 
record on the suffering of Zimbabwe's people--and presumably has made 
its peace with the fact that it clearly does not deserve to be 
considered a permanent member of the Security Council.
    Friday's failure of the Security Council to act is an indicator of 
the deterioration in the ability of United Nations institutions to 
serve as bulwarks of democratic ideals and human rights standards in 
the present age of authoritarian assertiveness. The U.N.'s Human Rights 
Council has similarly declined to take up Zimbabwe's deteriorating 
situation. We at Freedom House believe that the decline in U.S. 
influence in these global institutions stems in equal measure from the 
present administration's policy of estrangement from the U.N., which 
has dissipated our country's ability to shape outcomes; the 
fecklessness of too many other democratic states who are not willing to 
confront bad behavior by their neighbors (especially in the absence of 
the United States from these battles); and the growing confidence and 
effectiveness of the world's dictatorships in seizing control of these 
bodies.
    The American posture on Zimbabwe has generally been quite 
admirable, as President Bush and the U.S. Congress have stepped up to 
the challenge with unequivocal statements and by making plans for a 
massive infusion of aid immediately upon the establishment of a 
legitimate government in Harare, and by proposing to tighten the 
targeted sanctions against key members of the regime. But it is clear 
that the U.S. has lost its ability to lead the Security Council to 
adopt even minimal sanctions against a regime as odious as the 
illegitimate Government of Zimbabwe, whose policies are clearly 
destabilizing the southern African region through the displacement of 
millions and the impoverishment of an entire nation.
    Disarray on Zimbabwe in the African Union and the Southern African 
Development Community is a promising development. While the double veto 
in the Security Council underscored the demise of democratic 
sensibilities in that venue, the fracturing of consensus in African 
regional and subregional organizations is a positive and hopeful sign. 
Even though Mr. Mugabe was permitted to attend the recent African Union 
summit in Egypt in the immediate aftermath of the coup on June 27, the 
cold welcome and the numerous critical statements that were made by 
African heads of state and government, both in private and public, 
speaks to the emergence of a stronger democratic sensibility in sub-
Saharan Africa. Important African voices have been speaking out, with 
clarity and forcefulness, on the problem in Zimbabwe and the need for 
the region to respect the will of that country's people, rather than to 
tolerate the descent into darkness of Mugabe's Zimbabwe.
    For the first time ever, a SADC election observer delegation 
concluded, following Zimbabwe's June 27 debacle, that ``the elections 
did not represent the will of the people.'' Led by the courageous 
President of Zambia, Dr. Levy Mwanawasa, a growing chorus of African 
heads of government has over the course of the past few weeks spoken 
out in ever more vociferous terms. Dr. Mwanawasa, the SADC chairman, 
said before the June 27 runoff, ``What is happening in Zimbabwe is a 
matter of serious embarrassment to all of us. It is scandalous for the 
SADC to remain silent in the light of what is happening.'' U.N. Deputy 
Secretary General Asha-Rose Migiro, the former Foreign Minster of 
Tanzania, said ``When an election is conducted in an atmosphere of fear 
and violence, its outcome cannot have a legitimacy that is built on the 
will of the people.'' She told the Security Council, as she briefed the 
15-member body on the recent African Union summit in Sharm el-Sheikh, 
``the principle of democracy is at stake,'' and that, in the case of 
Zimbabwe, ``flawed elections produced illegitimate results.'' The 
President of Liberia, Ellen Johnson Sirleaf, the President of Ghana, 
John Kufuor, and leaders in Botswana, Kenya, Nigeria, Sierra Leone, 
Senegal, have all made clear that the political process in Zimbabwe is 
not acceptable.
    Leading voices in South Africa, from Nelson Mandela to ANC chair 
Jacob Zuma, have distanced themselves from the approach being pursued 
by the current President of South Africa, Thabo Mbeki. The leadership 
demonstrated by respected African figures outside of governing circles, 
such as Archbishop Desmond Tutu, who said that South Africa had 
``failed its Apartheid-era friends,'' has inspired others to speak out 
forcefully. Reverend Mpho Moruakgomo of the Botswana Council of 
Churches stated, ``What has happened in Zimbabwe is a slap in the face 
to all humanity. It is regrettable that a democracy so hard won, for 
which so many died, has been allowed to be desecrated by one egotist 
and his military junta.''
    Note in contrast, outlying statements such as that of the head of 
state of The Gambia, President Alhaji Dr Yahya Jammeh, who has given 
the June 27 Presidential election runoff in Zimbabwe a clean bill of 
health, saying ``Zimbabwe's election is valid.'' President Jammeh, of 
course, came to power in July 1994, at the age of 29, as the leader of 
a coup that ended three decades of peaceful and largely fair elections 
in his country. Though still a young man, Jammeh's is the view of the 
``old Africa,'' now being replaced in more and more countries by the 
``new Africa'' that is based increasingly, if not yet entirely, on 
respect for the rule of law and the will of the people.
    While headlines about misrule in Sudan, Somalia, and Zimbabwe may 
obscure the truth, the fact is that Africa is becoming more democratic 
over time, more respectful of civil liberties and political rights. The 
rising tide of African support for a democratic outcome in Zimbabwe, 
along with rejection of the results of June 27, is therefore as 
unsurprising as it is significant. It has implications beyond the 
present moment in Zimbabwe, and may signal a renewed and genuine 
commitment to democratic norms in sub-Saharan Africa--a region that, at 
least in its formal multilateral politics, has hitherto rarely been 
outspoken on such matters. It is not only because the situation in 
Zimbabwe is so egregious that so many African leaders are speaking out 
and calling for international action. It is because the democratic 
character of sub-Saharan Africa is improving. Even as Zimbabwe's 
freedom scores have steadily declined over the past two and one-half 
decades, the continental average has gradually moved upward.
    I enclose two charts summarizing data from the Freedom House annual 
survey, Freedom in the World. Note (in Figure 1) that the overall 
average score for Africa has moved, since 1990, from a rather low score 
of 6 (on a scale from 1 to 7, where 7 is the lowest) in political 
rights, to 4.2 in 2008. Civil liberties scores have improved in the 
same period overall from 5.3 to 4. This is not only hopeful; it 
constitutes significant change that affects the quality of life for 
ordinary men and women across the continent.
    Zimbabwe, on the other hand, achieved its highest levels of freedom 
in 1981, receiving a 3 for political rights and a 4 for civil 
liberties. Since that year (as Figure 2 conveys), freedom in Zimbabwe 
has steadily declined and finally fell into the ``Not Free'' category 
of our rankings in 2001 following the fundamentally flawed elections in 
June 2000 and the initiation of government seizures of white-owned 
farmland. Zimbabwe then joined the ranks of ``The World's Most 
Repressive Regimes'' in 2005.
    The ruling party, ZANU-PF, has made a mockery of every election 
since the Movement for Democratic Change was created in 1999 and waged 
a successful campaign to reject the 2000 draft constitution that aimed 
to expand executive power.
    In fact, Zimbabweans today are denied just about every single 
fundamental political and civil right:
    Freedom of expression is severely curtailed through a Draconian 
legal framework that includes the Access to Information and Protection 
of Privacy Act (AIPPA), the Official Secrets Act, the Public Order and 
Security Act (POSA), and the Criminal Law (Codification and Reform) 
Act. Journalists are routinely subjected to verbal intimidation, 
physical attacks, arrest and detention, and financial pressure by the 
police and supporters of the ruling party. Foreign journalists are 
rarely granted visas, and local correspondents for foreign publications 
have been refused accreditation or threatened with lawsuits and 
deportation.
    Academic freedom is limited. All schools are under state control, 
and education aid is often distributed based on parents' political 
loyalties. Security forces and ZANU-PF thugs harass dissident 
university students, who have been arrested or expelled for protesting 
against government policy. In 2007, several protests by university 
students resulted in arrests and beatings; police closed the University 
of Zimbabwe in July.
    Freedom of Association is strongly impeded. The 2004 Non-
Governmental Organizations Act explicitly prohibits groups that 
``promote and protect human rights'' from receiving foreign funding. 
Public demonstrations and protests are severely restricted under the 
2002 Public Order and Security Act (POSA), which requires police 
permission to hold public meetings and demonstrations. Such meetings 
are often deemed illegal and broken up, and participants are subject to 
arbitrary arrest by security forces (including intelligence officers) 
and attacks by ZANU-PF militias. The POSA also allows police to impose 
arbitrary curfews and forbids criticism of the President. The right to 
collective labor action is limited under the Labor Relations Act, which 
allows the government to veto collective bargaining agreements that it 
deems harmful to the economy.
    Rule of Law does not function. While some courts, thanks to 
courageous and clear-minded magistrates and judges, have struck down or 
disputed government actions, increasing pressure by the regime has 
substantially eroded the judiciary's capacity to act independently. The 
government has repeatedly refused to enforce court orders and has 
replaced senior judges or pressured them to resign by stating that it 
could not guarantee their security. Security and military forces abuse 
citizens with impunity. War veterans and ZANU-PF militias--including 
the youth militia--operate as de facto enforcers of government policies 
and have committed human rights abuses such as assault, torture, rape, 
extralegal evictions, and extralegal executions without fear of 
punishment.
    And the list goes on and on.
    The levels of violence and intimidation reached new heights of 
barbarity leading up to the June 27 runoff election, with nearly 90 
opposition members and supporters dead and thousands harassed, 
tortured, and displaced. Techniques used to terrorize supporters of the 
opposition have included dismemberment and mutilation of limbs and 
genitals. This was done to a population already reeling from massive 
food shortages and a collapse of the health care system that has left 
one in four Zimbabweans HIV positive. Moreover, now that Mugabe has 
once again falsely claimed the Presidency, the violence against 
opposition has continued unabated with over 1,500 MDC supporters still 
in detention around the country.
    So, what is to be done by the United States? What can be done? 
There are six things I would suggest to inform U.S. policy in the 
period immediately ahead.
    1. Support a transition government in Zimbabwe rather than a 
government of national unity. While the distinction may seem merely 
semantic, it is critical in the present context. To oblige the people 
of the MDC to enter into a forced marriage with those who have so 
severely abused them would be to prolong the agony of Zimbabwe's 
suffering. A coalition based upon a genuine national election would be 
something for political leaders to negotiate later. But until that 
moment arrives, the international community would be better advised to 
work toward the installation of an interim government focused on a real 
transition to democracy than to paper over differences.
    2. Support the MDC, for as long as they speak for Zimbabwe. As 
Michelle Gavin of the Council on Foreign Relations has memorably 
written recently, in the Christian Science Monitor of July 9, ``focus 
on Zimbabwe's people,'' and not merely on the prominent political 
actors of the moment. Without meaning any disrespect for the brave men 
and women of the MDC, and their courageous leaders, Morgan Tsvangirai 
and Tendai Biti, who have endured arrest, harassment, and beatings, the 
focus should be less on their installation in office than on the 
fundamental rights of the people of Zimbabwe to choose who shall 
govern. At present, the closest gauge we have of the sentiments of the 
people of Zimbabwe is that Mr. Tsvangarai and his allies in the 
parliamentary elections secured the largest number of votes and should 
be considered the legitimate spokespersons for the people of Zimbabwe. 
But as the people of Zimbabwe know so well, a popular mandate can be 
dissipated if leaders fail to perform in the best interests of their 
community. So, support for the MDC at this moment should be fulsome--
and conditional.
    3. Support Zimbabwean civil society. Today, July 15, a ``National 
Civil Society Consultative Conference'' has been convened in Harare. 
Scores of civic group leaders have come together upon the initiative of 
the National Association of Non-Governmental Organizations to discuss 
how to further consolidate consensus on the way forward for the 
country. Many of the groups meeting today played important roles in 
educating voters, and implementing get-out-the-vote programs in March, 
and in monitoring the election process and the vote count. Many also 
have ongoing nonpolitical mandates and service delivery functions and 
so are well connected to the people of Zimbabwe. These are important 
voices and the international community should take heed of their 
deliberations and be inclined to be responsive to well-formulated 
requests for assistance in advancing toward accountable governance. 
USAID and other donors have supported such efforts in the past, and an 
attentive, supportive posture toward civil society should be sustained.
    4. Be poised to assist the transition government. As noted earlier, 
the administration has done well to request $45 million in funding to 
assist in the rehabilitation of Zimbabwe once a legitimate government 
comes into office. It is vital that, in the truncated appropriations 
legislative process that seems likely this year, Senators and 
Representatives stay focused on ensuring that this funding is available 
in the coming weeks or months to have maximum impact. It is also not 
too soon to convene working groups of international experts, from the 
U.S., Africa, and the world to advise Zimbabweans--for the lead must be 
taken by qualified Zimbabweans--to plan for the reconstruction of 
Zimbabwe when circumstances permit. These planning efforts should draw 
on the immense pool of talented Zimbabwean men and women available in-
country or in the growing diaspora outside the country. At the same 
time, Freedom House calls upon Europe to match the U.S. commitment, 
either through the EU or bilateral assistance packages. Funding 
priorities should include feeding Zimbabweans, providing relief for 
HIV/AIDS patients, stabilizing the currency, and rewriting the 
constitution.
    5. Support and reward African leadership toward the transition. 
While the U.S. should appreciate that the scenario in Zimbabwe is 
playing out on a global stage--autocratic states (such as those who 
thwarted the July 11 initiative to impose U.N. sanction) are watching 
to see how well the democratic world can handle their challenge--it is 
also a scenario in which African states will play the leading roles. 
United States diplomatic efforts therefore should be focused on 
reinforcing the emerging leaders in the region, by rewarding--through 
political and economic and other means--those governments whose leaders 
have led on the Zimbabwe crisis. It may well be the case that not all 
states can do the same things, but an array of complementary actions, 
in sanctions and political initiatives, should result in commensurate 
and tangible recognition in the form of political rewards from the 
United States. The U.S. Government could, for instance, start by 
expressing its appreciation to governments such as Botswana and Zambia 
and Liberia for their forward-leaning posture to date--appreciation in 
the form of having their Presidents invited to the White House, not 
necessarily for a joint statement on Zimbabwe, but to talk about 
whatever those other Presidents have on their agendas.
    6. Do not give up on the United Nations and other diplomatic 
venues. Notwithstanding the rationales offered for their stands by the 
Russian Government and others, the crisis in Zimbabwe does indeed 
constitute a threat to international peace and security--one for which 
U.N. Security Council action would be entirely appropriate. The U.S. 
ought therefore to reinvigorate its multilateral diplomacy, not least 
because this is but the first in a series of efforts by the 
dictatorships to undermine the institutions of international order. 
Basic human rights principles are being vigorously contested by world 
and regional powers alike on the basis of ``national sovereignty,'' 
despite the evident horrors in Zimbabwe. It is vital that the U.S. not 
be deterred.
    Thank you for this opportunity to discuss the present crisis in 
Zimbabwe. I look forward to your reactions and the discussion.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Feingold. Thank you very much, Mr. Melia, for your 
testimony.
    Ms. Gavin.

  STATEMENT OF MICHELLE D. GAVIN, ADJUNCT FELLOW FOR AFRICA, 
           COUNCIL ON FOREIGN RELATIONS, NEW YORK, NY

    Ms. Gavin. Thank you so much, Chairman Feingold and Senator 
Isakson. It is a real honor to be here. I have tremendous 
respect for this subcommittee and have spent a lot of time 
thinking about the work of this subcommittee, and I am so 
pleased to be here. I think it is wonderful that you are 
focusing on this important issue today. I want to thank the 
staff as well because I know how much work goes into these 
hearings, and particularly, Mr. Chairman, to thank you for your 
kind words. I really have so much admiration for your 
commitment and knowledge, and I think that you have been 
quietly a hero for Africans for quite some time.
    I would request that my full written statement be included 
in the record.
    Senator Feingold. Without objection.
    Ms. Gavin. And I will just briefly summarize because there 
are mostly points of agreement between Mr. Melia and I and 
frankly with the first panel as well.
    The current state of play with regard to Zimbabwe is 
characterized, as we have heard, by a desperate internal 
situation, a divided and at this point fairly ineffective set 
of international responses, and a troubling lack of clarity and 
consensus about the most promising way forward. And the truth 
is the United States has very limited options and limited 
leverage, but that is not an excuse for inaction.
    Zimbabwe today, as you know, is a country held hostage by 
an illegitimate government. As the international community 
fails to come to consensus on a strategy for resolving the 
crisis, civilians continue to suffer terribly. We have heard 
the litany of statistics. I will not go through them again
    But this is an important time to be talking about this 
because last week's failed attempt to pass a United Nations 
Security Council resolution applying additional international 
pressure on those most responsible for Zimbabwe's suffering was 
deeply disappointing. It was a real illustration of the risks 
that still exist in the international community with regard to 
the crisis and it dramatically slowed multilateral momentum. 
And it is important to find ways to ramp that back up.
    In the first panel, I believe that Secretary Frazer talked 
about how important it is that we not lose focus. I think this 
was in the chairman's opening statement as well. And I do think 
that is a critical point.
    The motives driving those who have acted to protect 
Zimbabwe's repressive and illegitimate government are varied. 
But undoubtedly they include the following, in addition to 
others.
    There is just a glass houses element here. Governments that 
are themselves autocratic to some degree are uncomfortable with 
the idea of multilateral pressure on a despotic regime. There 
is not a whole lot we can do about that right now, but some of 
the others are things that we might be able to do something 
about.
    There is the sense of discomfort of appearing to be at odds 
with South Africa and with South African President Mbeke, but 
as change comes in South Africa, as not just civil society but 
other elements of the South African Government find their 
voice, it might be less difficult to address that issue.
    There certainly had been for a long time the sense of 
discomfort with criticizing President Mugabe, as you pointed 
out, long known as a liberation hero, and his legacy is indeed 
complex. I think that we can address that in some ways by, as 
my colleague has said, spending more time talking about the 
civil and political rights of the Zimbabwean people and a 
little less time framing this crisis as one about a power 
struggle between political elites. We have to tell it like it 
is certainly about the Mugabe regime and be very 
straightforward about just how repressive it is. But I think 
for many African states, it would be a much more comfortable 
way to frame the issue to talk about restoring the rights of 
the Zimbabwean people--after all, that is what a liberation 
struggle was about--than to constantly be framing it as an 
issue about targeting a specific leader.
    And finally, I think that there is this misperception out 
there, and I think this speaks to this West and the rest 
divide, Mr. Chairman, that you identified. There is a 
misperception that Africans want to move forward on some kind 
of negotiated political process that will map out a path out of 
this crisis and that the United States and others want only to 
move forward on sanctions, and that there is some idea out 
there that these are mutually exclusive paths instead of 
complementary paths. And I do think by talking more about why 
these are routes that should be taken simultaneously could help 
in terms of framing the issues and restoring some multilateral 
momentum as well.
    And let me just explain a bit about what I mean. At this 
point, the opposition is basically being asked to negotiate at 
the point of a gun. Their supporters continue to be harassed 
and beaten and tortured, and yet they are supposed to walk into 
a negotiating room and assume some kind of good faith. They 
have very limited leverage in any negotiation without increased 
international pressure. It is essentially political extortion, 
not a negotiation, and it would be absurd for the international 
community to support that.
    But with additional pressure, I think that Secretary Frazer 
is right. A political process very well may be the way forward. 
ZANU-PF is certainly not going to simply disappear from the 
scene. A negotiation that can make the most of some of the 
riffs within the ruling party that she identified and 
critically that stresses what we need is a transitional 
government where there is some degree of power-sharing but 
there is a fixed timeframe leading to a new free and fair 
election, not some endless situation of power-sharing where 
political elites all get a seat at a table and the Zimbabwean 
people get forgotten. That does seem to be the most likely way 
forward.
    So in terms of recommendations, that leads to what I have 
already discussed, these framing issues, that it is important 
to talk about the complementarity between increased pressure 
and negotiations, that it is important to emphasize the dignity 
and rights of the Zimbabwean people and emphasize efforts to 
improve their future prospects, not simply to condemn Robert 
Mugabe and his cronies.
    I would say it is critical to pay attention to Parliament 
and what is happening there or, rather, what is not happening 
when it is not being convened. And there are some very alarming 
reports about what the Government of Zimbabwe's plans might be 
for undermining the results of the March Parliamentary 
elections. Any kind of recovery in Zimbabwe, any kind of 
negotiated deal is going to depend on an effective Parliament, 
and that is an issue that should be watched more closely, be 
spoken about a great deal more in our dialogue with African 
leaders.
    It makes sense to do what Secretary Frazer talked about, 
which is to keep working on these unilateral sanctions, trying 
to tighten up our own sanctions regime, but we have to be 
honest with ourselves. Those have limited efficacy, and they 
cannot be a substitute for trying to broaden the community of 
actors that are putting pressure on those most responsible for 
repression in Zimbabwe.
    Obviously, there has to be some supplement to President 
Mbeke's mediation efforts. They are insufficient. And the 
United States can help not only by supporting that by ensuring 
that international actors and the mediation team are in a 
dialogue with Zimbabwean civil society. So again, this does not 
become just a process for political elites, but we are keeping 
that focus on Zimbabwe and Zimbabwean citizens.
    We should keep working on those in ZANU-PF who recognize 
that they do not have a very bright future if the status quo 
persists. They are working on a different time frame than 
President Mugabe is, and it is important to have quiet 
conversations with some of those actors.
    Finally, as Mr. Melia said, as the administration witnesses 
said, it is important to keep talking about Zimbabwe's 
recovery. Laying out clear, concrete incentives for reform can 
help change the calculus of actors on the ground. It should not 
be abstract. It should not be theoretical. This is important 
for the region as well, for South Africans, and other Southern 
Africans to believe that there is a constructive project here 
that is going to benefit all of them if only we can get to that 
place. So I do think that it is not pie in the sky and it is 
critical to keep talking about Zimbabwe's recovery.
    Thank you very much.
    [The prepared statement of Ms. Gavin follows:]

  Prepared Statement of Michelle D. Gavin, Adjunct Fellow for Africa, 
               Council on Foreign Relations, New York, NY

    I am grateful to Chairman Feingold and Senator Isakson for this 
opportunity to testify before the Subcommittee on African Affairs, and 
I thank the subcommittee for its consistent and thoughtful efforts on 
the issue of Zimbabwe.
    The current state of play with regard to Zimbabwe is characterized 
by a desperate internal situation, a divided and ineffective set of 
international responses, and a troubling lack of clarity and consensus 
regarding the most promising way forward. The United States has limited 
options, but there are steps that can and should be taken to improve 
the prospects for a peaceful and swift resolution to the crisis.

                           A MANMADE DISASTER

    This subcommittee is more than familiar with Zimbabwe's recent 
history. By the late 1990s, economic mismanagement, official 
corruption, and the dominance of the ruling ZANU-PF party had stoked 
significant frustration within the country. A referendum on 
constitutional change that would have strengthened President Mugabe 
considerably catalyzed the forces opposed to the status quo and led to 
the emergence of a new opposition party, the Movement for Democratic 
Change (MDC), with roots in the Zimbabwe Congress of Trade Unions. When 
the electorate rejected the government-backed draft constitution in 
February 2000, the ruling party embarked on an increasingly costly 
campaign to shore up its power and guarantee its continued dominance.
    Over the course of parliamentary elections in 2000 and 2005 and 
Presidential elections in 2002, ZANU-PF continued a campaign of 
intimidation aimed at the MDC, its supporters, independent journalists, 
civil society activists, and ordinary Zimbabweans (especially the 
700,000 Zimbabweans displaced in 2005's Operation Murambatsvina). The 
ruling party employed youth militia forces and ``war veterans'' in 
addition to using the regular security services to further its agenda. 
Senior security officers came to have a decisive role in all government 
decisions. Over time, the MDC was weakened to the point of splitting in 
2005, with one faction led by Morgan Tsvangirai and another by Arthur 
Mutambara. Meanwhile, as the economy went into freefall, lucrative 
opportunities were provided to ZANU-PF elites to ensure their continued 
loyalty.
    The most recent round of elections demonstrated just how deep 
dissatisfaction with the ruling party has become within Zimbabwe--and 
just how far the Mugabe regime is willing to go to cling to power. The 
extraordinary nature of the MDC's victories in the March 29, 2008, 
parliamentary and Presidential elections can only be understood when 
combined with a full appreciation for just how unfair the preelection 
conditions were in the runup to the balloting. Voting day itself was 
peaceful, but the campaigning period featured incidents of state 
harassment of opposition candidates, an extraordinarily strong state 
media bias in favor of the ruling party, manipulation of subsidized 
food to favor ZANU-PF, and widely publicized statements from senior 
security officials indicating that they would not recognize any victor 
but President Mugabe. Even with the deck stacked steeply against them, 
the official tallies, which the ZANU-PF-dominated electoral commission 
took 5 weeks to announce, revealed that opposition candidates fared 
extremely well with voters, winning a narrow majority in the House of 
Assembly and a plurality of the votes for President, though not enough 
to avoid the need for a runoff.
    In the weeks before the runoff election, preelection conditions 
went from problematic to terrifying. The Government of Zimbabwe banned 
many humanitarian and development NGOs from operating in the country 
and launched a vicious and far-reaching campaign of brutality and 
violence targeting MDC leaders and supporters as well as everyday 
citizens. Mugabe and members of his inner circle also made it clear 
that they would not respect any election result other than victory. In 
response, Tsvangirai withdrew from the June 27 sham exercise, which 
Mugabe won in a meaningless landslide.
    Zimbabwe today is a country held hostage by an illegitimate 
government. As the international community fails to come to consensus 
on a strategy for resolving the crisis, civilians suffer in the midst 
of a man-made economic catastrophe characterized by stratospheric 
hyperinflation, massive unemployment, and food shortages so severe that 
the World Food Program anticipates that some 5 million Zimbabweans will 
be in need of food aid by September. This humanitarian crisis is all 
the more alarming in light of the Government of Zimbabwe's refusal to 
allow NGOs full access to populations in need. On top of this grim 
outlook, brutal political repression continues in Zimbabwe, as 
hardliners in ZANU-PF seek to continue punishing Zimbabweans for 
supporting democratic change and to decimate the organizational 
capacity of the opposition party and of independent civil society 
organizations. The ruling party continues to keep the press on a tight 
leash and takes deliberate steps to isolate and misinform the 
Zimbabwean people.

                       THE INTERNATIONAL RESPONSE

    The international community's response to these developments has 
been disjointed for years, and unfortunately it remains incoherent 
today. Over the course of the past 8 years, the United States, EU, 
Australia, and others condemned the repression in Zimbabwe and in many 
cases pursued targeted sanctions policies while still trying to provide 
humanitarian support to the population. In 2004, Zimbabwe withdrew from 
the Commonwealth rather than face expulsion. But many African states 
have long been reluctant to condemn Mugabe, and South African President 
Thabo Mbeki's efforts to mediate between the MDC and ZANU-PF on behalf 
of the Southern African Development Community (SADC) have produced very 
little in the way of results. Mugabe has exploited these different 
reactions, and often characterizes the crisis in Zimbabwe as a new 
liberation struggle against neocolonial Western powers.
    The events of the past several months have focused renewed 
international attention on Zimbabwe's crisis. Teams from the African 
Union, SADC, and the Pan-African Parliament all issued statements 
regarding the June 27 election indicating that it did not meet any 
appropriate standards. Several African governments, including those of 
Zambia, Botswana, Liberia, Senegal, Tanzania, and even Angola have, in 
one form or another, denounced the Zimbabwean Government's actions. 
Powerful voices from within South Africa have spoken out as well. But 
at the recent AU summit, African leaders could come to consensus only 
around language expressing concern about the situation and encouraging 
negotiations aimed at forming a Government of National Unity.
    Despite resistance from some African leaders, the G-8 issued a 
strong statement on Zimbabwe on July 8, rejecting the legitimacy of the 
current Government of Zimbabwe, urging a negotiated resolution to the 
crisis that respects the results of the March 29 election, recommending 
the appointment of a U.N. envoy to report on the crisis and facilitate 
mediation, and pledging to take further action against those 
responsible for political violence. But last week's failed attempt to 
pass a United Nations Security Council resolution applying additional 
international pressure on those most responsible for Zimbabwe's 
suffering was a deeply disappointing illustration of the rifts that 
still exist in the international community with regard to Zimbabwe's 
crisis that dramatically slowed multilateral momentum. Though the 
resolution had nine votes of support, Russia and China both exercised 
their vetoes to defeat the resolution, and South Africa, Libya, and 
Vietnam voted against it.
    The motives driving those who have acted to protect Zimbabwe's 
repressive and illegitimate government are varied, but they undoubtedly 
include the following concerns:

  --A desire on the part of repressive governments to shield similarly 
        autocratic and illegitimate regimes from international 
        approbation;
  --A fundamental discomfort with the prospect of condemning a leader 
        of a historic liberation struggle;
  --An unwillingness to publicly acknowledge the inadequacy of 
        President Mbeki's mediation efforts; and
  --A misguided belief that increased international pressure and an 
        internationally supported political solution to the current 
        crisis are mutually exclusive goals.

                  THE SEARCH FOR A POLITICAL SOLUTION

    While the international community is in disarray regarding the 
issue of sanctions, there is widespread international consensus on the 
desirability of negotiating the formation of some new government that 
includes elements of both ZANU-PF and the MDC. However, the form such a 
government would take is unclear. All indicators suggest that ZANU-PF 
wishes to retain its power and simply co-opt the MDC. The opposition 
points out that it was the winner of the March 29 elections, which had 
some real legitimacy, and therefore should lead any new governing 
arrangement.
    While the MDC has participated in talks (which currently appear to 
be stalled) on the modalities for such a negotiation, the party 
continues to insist that it will not actually negotiate until political 
prisoners in Zimbabwe are released and the violent repression within 
the country stops. In short, the opposition does not wish to be forced 
to negotiate at gunpoint. Without the leverage of increased 
international pressure, however, this request for fundamental fairness 
is unlikely to be met. The MDC has also called for a new mediator from 
the AU to take the lead in facilitating negotiations, but despite 
having completely lost the confidence of one of the parties, President 
Mbeki is clearly reluctant to relinquish his exclusive role.
    Whatever the specifics of the process, one should be wary of too 
many glib calls for a ``Kenyan solution.'' Some actors, including 
Robert Mugabe, will have to exit the political stage, and only an 
enforceable transitional arrangement that guides the country to 
genuinely free and fair elections within a specified timeframe makes 
sense. To view power-sharing as an end in itself is to ignore the 
Zimbabwean people and to discount the decisive role that they should 
play in determining the future of governance in their country. The 
problem in Zimbabwe is not that Robert Mugabe and Morgan Tsvangirai are 
locked in a struggle for executive power. The problem is that the 
Zimbabwean people have been denied their fundamental rights. Keeping 
the population rather than political elites at the forefront of the 
international debate can help to ensure that political solutions 
actually create space for more accountable governance in the future.

                               NEXT STEPS

    The hard truth is that this international landscape leaves the 
United States without many promising options, but this is not an 
argument for inaction or for empty gestures. A combination of public 
signaling, private communication, and concrete action can help to 
influence Zimbabwean and other African actors with more direct leverage 
than the United States possesses.
    With regard to public messages, it is vital that the United States 
underscore that increased international pressure on the current, 
illegitimate Government of Zimbabwe is not intended to be an 
alternative to a political negotiation leading to a transitional 
government. Instead, increased pressure is needed to make such a 
negotiated process possible, by compelling ZANU-PF to abandon its 
current strategy of trying to beat the opposition into bending to its 
will. That's not a negotiation; that's political extortion, and for the 
international community to rely upon such a process is absurd.
    As suggested above, the United States should make plain that the 
fundamental aim of its policy is to respect the dignity and rights of 
the Zimbabwean people and to improve their future prospects, not simply 
to condemn Robert Mugabe and his cronies. Certainly there is nothing 
wrong with speaking the truth about the appalling regime currently in 
power, and it is important to continue to note that this government has 
no claim to legitimacy. But efforts to encourage more effective African 
policies stumble when we overemphasize the role of individual political 
elites and underemphasize the point that the citizens of Zimbabwe, more 
than any political leader or group, deserve international support for 
their basic rights. They also deserve basic protections and assistance. 
The United States must continue to work with others to push for full 
humanitarian access in Zimbabwe, and this issue should be raised in 
regional and international organizations constantly until it is 
resolved.
    The United States should avoid focusing on the problems with the 
Zimbabwean Presidency to the neglect of the Parliament. Extremely 
worrying indications suggest that ZANU-PF will try to wrest the 
majority of seats in the House of Assembly back from the MDC before 
allowing the Parliament to function at all. By threatening elected 
opposition officials or arresting them, ZANU-PF is again thwarting the 
democratically expressed will of the citizens and doing further damage 
to the country's governing institutions. The United States must keep a 
close watch on parliamentary developments, and should be discussing 
these alarming trends regularly with African leaders to ensure that the 
integrity of the parliamentary election results remains on the 
international agenda.
    Of course, the United States should act quickly and decisively to 
tighten targeted sanctions on individuals and institutions directing, 
perpetrating, or financing political violence and undermining democracy 
in Zimbabwe, but we must recognize that these actions, while they help 
to increase the costs of repression and lend themselves to satisfyingly 
tough announcements, cannot stand alone. Hard diplomatic work must 
accompany unilateral action to significantly broaden the community of 
countries taking meaningful steps to pressure the most problematic 
actors in Zimbabwe. That means that despite last week's disappointment 
in the Security Council, the United States should keep working at the 
highest levels to encourage international and regional bodies to take 
stronger action that can set the stage for genuine political 
negotiations.
    President Mbeki cannot be effective as the sole mediator in talks 
between the MDC and ZANU-PF. Another mediator with a mandate from the 
African Union must be brought in to facilitate negotiations, and the 
United States should work closely with the AU to expedite the 
deployment of such an additional actor and to ensure that he has all of 
the resources required to succeed, including the capacity to call on 
members of the international community to provide vital guarantees and 
lay out clear consequences for bad faith. The United States can also 
work to ensure that international actors supporting an effective 
negotiation regularly consult with Zimbabwean civil society.
    The United States should recognize that Zimbabwe's ruling party is 
not monolithic. Ultimately, actors within ZANU-PF who recognize that 
the country's economy must be stabilized and that this will not happen 
if the political status quo persists, can be persuaded to abandon the 
hardliners who aim to cling to power at all costs. Where the United 
States has access to some of these actors, it should not miss 
opportunities to encourage them to act on what they know to be true: 
Mugabe must go, and the era of unaccountable ZANU-PF-dominance must 
end.
    In this vein, it is still useful to speak publicly and clearly 
about the recovery efforts that the United States and other members of 
the international community are prepared to support once sound 
governance mechanisms are in place in Zimbabwe. Moreover, the United 
States should continue efforts to establish sound reconstruction plans 
and to marshal international resources toward this end. By making sure 
that incentives for supporting a change in governance are concrete 
rather than theoretical, the United States, working with others, can 
help to garner more ZANU-PF support for real reform, and to isolate 
those currently wielding the most influence within the party.
    Ideally, the Zimbabwean people will be able to make final decisions 
about accountability for crimes committed to date. But the United 
States and others can support efforts to establish the basic facts of 
the matter by backing a United Nations investigation of the human 
rights abuses that have occurred thus far.
    Finally, it is worth noting that the limits of U.S. leverage in 
this situation point toward the need for effective multilateral 
institutions and diplomatic credibility in order to address pressing 
foreign policy concerns. Not only does the United States have a clear 
interest in averting violent conflict and costly state collapse, it 
also has an obvious interest in promoting democracy and development in 
a region that should be an economic engine for the continent. None of 
these concerns will be addressed in Zimbabwe simply through unilateral 
action. Halting the decline of U.S. soft power, and doing the often-
frustrating work of building consensus internationally, are 
indispensable building blocks of a policy response to Zimbabwe's 
crisis, and to others that may emerge in the future.

    Senator Feingold. Ms. Gavin, thanks for your excellent 
testimony. And your comments remind me of the meeting you and I 
attended of Zimbabwean civil society with people with enormous 
courage and ability and how critical it is that they be central 
to the future.
    I will start with a 7-minute round.
    Mr. Melia, your organization, Freedom House, works 
extensively with civil society in countries throughout Africa, 
and I know that domestic electoral observers, such as the 
Zimbabwean Electoral Support Network, played a courageous role 
in reporting on the March 29 elections and subsequent events.
    Is there still a need to protect domestic observers? And if 
so, what steps should be taken to do that?
    Mr. Melia. Yes. The brave people of ZESN, that election 
network, which was itself a coalition of a number of 
preexisting civil society groups, went into the March elections 
with a fair amount of trepidation. They were afraid of being 
beaten and abused and losing jobs, et cetera.
    What was interesting--and that was the period when I was in 
Zimbabwe just before the March 29 election--was that they were 
out doing their thing. They were out educating people on how to 
vote because there was some reapportionment of districts that 
made it a little bit complicated on knowing where to vote on 
election day. And there were a lot of people in church groups, 
and civic groups, and women's groups, et cetera that were out 
there telling people how to vote properly to make sure they got 
their vote cast and counted. And that made a big difference on 
election day and the fact that they were present in those 
places. And we and others supported those efforts with money, 
training, the provision of material goods.
    But they were waiting every day for the other shoe to drop, 
and what people told me, MDC leaders told me, civil society 
leaders were waiting for the other shoe to drop. They said the 
surge in violence that we were expecting from the regime has 
not arrived yet. And that was in those days before March 29.
    The surge in violence did not really come until 3 or 4 days 
after March 29. In June, it was all about the surge in violence 
by the regime against these people. So their efforts were 
severely disrupted. There were some efforts at monitoring, but 
mostly they were not able to implement their monitoring 
program. The voter education groups mostly did not implement 
the plans they had in June, and ZESN did not issue a statement 
after the election.
    So those people are at the ready. They took it on the chin, 
quite literally, from the Joint Operations Command and the 
militias, the veterans, the groups that were out beating people 
who were supporting a legitimate process. So efforts by the 
international community to provide some protection to them 
would be very important.
    Senator Feingold. What role does the Zimbabwean diaspora 
play in the current situation? How can they best contribute to 
a negotiated agreement, Mr. Melia?
    Mr. Melia. Well, as you know, 2 million to 3 million 
Zimbabweans have left the country in recent years. The 
Zimbabwean diaspora is a huge, significant portion of the 
population, only recently departed from Zimbabwe. Most of them 
are in South Africa.
    A lot of talent is in that community. A lot of the people 
who would be necessary to rebuild Zimbabwe are present in that 
diaspora community in southern Africa and worldwide, but mostly 
in South Africa and the region. Those are among the people that 
could be brought together for planning the transition 
arrangement to put together the plans for the future of 
Zimbabwe, and the international community could play a role in 
convening these Zimbabweans both those in country and those out 
of country to work together to plan for the reconstruction of 
their country.
    Senator Feingold. There is some concern. We have heard that 
the opposition MDC is facing internal strains largely as a 
result of the overwhelming repression by the security forces. 
What can be done, Mr. Melia, by the United States and others to 
ensure the cohesion of the MDC and its ability to negotiate 
effectively?
    Mr. Melia. A lot of effort has been invested over the last 
8 or 10 years in working with the MDC to develop strategies and 
organizational coherence. In a democratic movement, people are 
going to disagree. It will not always be possible to have 
everybody on the same page. But I think that the consultative 
process that the National Democratic Institute and the 
International Republican Institute has embarked on, working 
with the MDC and its different factions to keep venues for 
dialogue alive and working has been important in this process, 
just as the work that we have been doing on a parallel track 
with civil society to keep them talking with each other, to 
realize that they are fundamentally on the same side and on the 
same page.
    I think international groups have a role to play in 
convening meetings where they can discuss and strategize 
together. But I think if we overfocus on a particular result--
it is consistent with what Ms. Gavin said in that if we 
overfocus on particular outcomes or particular leaders getting 
into a particular position, we may lose our focus which should 
be on the broader population of Zimbabwe and a broader process 
in which Zimbabwean voices can be heard.
    So I think there is a degree of modesty we should retain in 
going into these kinds of consultative efforts. It is not up to 
us to direct them to come to a predetermined plan or a plan of 
action, but to facilitate their learning process and their 
consultative process.
    Senator Feingold. Ms. Gavin, you mentioned in your 
testimony that international pressure on the Mugabe regime 
should aim to give leverage to political negotiations and a 
negotiated agreement.
    How can the U.S. Government maximize its leverage to 
bolster current mediation efforts?
    Ms. Gavin. Well, unfortunately, the answer is doing the 
very hard slog of diplomatic work to ensure that we do not 
stand alone and that we do not just stand with a cast of 
characters that Robert Mugabe has in some ways effectively 
painted as neo-colonial or neo-imperialists. So we cannot sort 
of give up despite the frustration, and I understand the 
frustration--I feel the frustration--with the failure of the AU 
to take a more decisive stand with SADC's insistence thus far 
on sort of clinging to President Mbeke's mediation effort, 
which is simply inadequate. One does not have to criticize 
President Mbeke to acknowledge that you cannot have an 
effective mediation if you have lost the confidence in one of 
the parties. Well, there is no question that he does not have 
the confidence of the MDC.
    So we have to keep working to ensure that we do not stand 
alone. We cannot sort of comfort ourselves with a coalition of 
the willing approach and march forward with sanctions and 
advice regarding a political negotiation that does not include 
these other actors.
    Senator Feingold. And do you believe that the current 
mediation can be strengthened or is there a need to make this 
happen for a new mediation team and initiative?
    Ms. Gavin. I think that either is a possibility. I think it 
might be easier to finesse perhaps by simply supplementing the 
mediation that exists. That way no one has to reject anyone's 
good efforts and good offices. But certainly I think the 
Secretary was using ``expansion'' as her preferred phrase, and 
I think that makes some sense.
    Clearly, there needs to be a new actor in the mix, ideally 
one with a mandate from perhaps the AU, perhaps the U.N., 
although that may be difficult. And I think it makes sense to 
talk about needing a presence on the ground, a secretariat. The 
United States can play an important role in providing resources 
to such a temporary institution to ensure that that can be as 
effective a process as possible.
    But if I may just very quickly say I do think it is 
important not to make too many close parallels to the Kenyan 
situation. Zimbabwe is different. We are not dealing with this 
closely elected contest where the integrity of the process 
largely fell apart in the coalition and counting of ballots. 
This is a situation where we had one election that despite 
completely unfair preelection conditions where the deck was 
stacked against the opposition, voting day went pretty well, 
and the opposition emerged largely victorious and then a 
complete sham of a runoff. So it is a different kind of 
process. It requires a different sort of strategy.
    But where the parallel with Kenya I think does make some 
sense is to point out that it was international pressure and 
leverage that forced Kenyan actors to the table making 
concessions. It did not simply spring up of its own accord.
    Senator Feingold. And what steps should the United States 
take to increase pressure on South African President Mbeke to 
address the crisis in Zimbabwe in a strong, just, and efficient 
manner?
    Ms. Gavin. I am not sure that there things that we can do 
to change President Mbeke's mind about his approach and 
certainly on other bilateral irritants. I do not think that we 
have had much success when President Mbeke has dug into a 
position in resolving any kind of antagonistic relationship 
with him on specific issues. But I do think what we can do is 
make the most of the other South African voices that are making 
themselves heard. It is very important to recognize that South 
Africa is not monolithic, the ANC is not monolithic. And to 
talk about supplementing his efforts perhaps rather than 
rejecting them just might be more constructive.
    Senator Feingold. Finally--and then I will turn to Senator 
Isakson--Ms. Gavin, you have effectively said that any serious 
resolution of the current crisis must include Mugabe's exit and 
an end to ZANU-PF dominance. Under what circumstances do you 
believe Mugabe would exit, and how can the United States 
contribute to fostering those circumstances?
    Ms. Gavin. Here is where I do think quiet conversations 
with other parts of ZANU-PF come in because, obviously, 
President Mugabe would want some guarantees regarding his 
future. Ultimately decisions about accountability should be 
left in the hands of the Zimbabwean people. Ideally they will 
be able to make them. But in terms of the negotiation process, 
it seems reasonable to assume that some kind of arrangement to 
ensure his future security might be set up.
    But what would it take to get him to step aside? I think it 
would take pressure from within the ruling party. It would 
essentially take an act in which those in ZANU-PF who know that 
they have got no lasting future, that their investments are not 
secure--I am not pretending these people are terribly committed 
to good governance and democracy, but there is an enlightened 
self-interest that can be appealed to here. And I do think that 
it is going to take a decision within the party to take a 
different course and to isolate the hard-liners who right now 
are calling the shots. And that means some quiet conversations 
where we have access to important actors within ZANU-PF to try 
and encourage them to act.
    Senator Feingold. Thank you.
    I apologize, Senator Isakson, for going over time, but 
please proceed.
    Senator Isakson. Thank you, Mr. Chairman.
    I apologize, Mr. Melia. When I walked in and sat down, you 
were in the middle of a thought, and so I am going to ask you a 
question about what I think I remember I heard.
    You were talking about the inability of the U.N. to get the 
resolution through, and you made a reference to this 
administration's estrangement from the U.N. Is that correct? 
Did I hear that right?
    Mr. Melia. Yes; you did.
    Senator Isakson. Would you elaborate on that estrangement?
    Mr. Melia. Well, for instance--and it relates directly to 
these discussions of human rights and democracy. The U.N.'s 
Human Rights Council in Geneva--the administration has chosen 
not to present itself as a candidate, not to be active in the 
workings of the newly reorganized council. And it has left the 
field to the enemies of freedom and democracy. The Russians and 
the Egyptians and the Chinese and the Cubans are very active in 
these U.N. forums. It matters a lot to them that they be able 
to thwart efforts to pass resolutions, conduct investigations, 
develop reports. And as long as we are absent from these 
forums, the side of the democracies is weaker for that.
    So there has been--I do not need to revisit all of the 
rhetorical fireworks of the early part of the Bush 
administration in approaching the U.N. under Ambassador 
Bolton's leadership, et cetera. But it has left the United 
States not as present and engaged in the U.N. system generally 
and specifically on matters of human rights and democracy as it 
could have been.
    Senator Isakson. Ms. Gavin made a comment about--where is 
my note here? Motives are varied in the reasons to vote against 
the resolution, but you referred to the autocratic glass house 
theory where sometimes autocrats just do not want to vote 
against somebody who is pretty autocratic themselves. Did I 
hear it that way?
    Ms. Gavin. That is right.
    Senator Isakson. So really, I do not have a secret motive 
here. So really, what you are saying is, Mr. Melia, if we had 
been a better participant, for example, in the human rights 
negotiation or committee, whatever, we might have had more 
leverage on the Security Council to keep that from happening?
    Mr. Melia. It is not clear that we would have been able to 
avoid the Russian and Chinese vetoes by any means. And if you 
look at the Security Council vote, the people that voted with 
the Russians and the Chinese were Libya and Vietnam, along with 
South Africa. All the rest of the Security Council voted for 
the sanctions.
    But my point is that there is an active campaign by those 
nondemocracies to seize control of these institutions and to 
use them to thwart the adoption of measures that reflect what 
we would see as fair standards on human rights and democracy.
    Senator Isakson. Sort of a self-preservation motivation.
    Mr. Melia. Absolutely. Now, Michelle Gavin is right. Look 
at the voting both in the AU and in SADC and at the Security 
Council. It is clear it is not so much of a regional 
distinction or a left/right distinction. It is a democracy 
versus nondemocracy distinction. And that is the point I was 
making earlier about the sub-Saharan Africa more generally, is 
that over the last 10 and 20 years, there has emerged a 
democratic character in sub-Saharan Africa's governance that 
was not there previously. It is still nascent. It is still 
fragile, but it is emerging. And that is what we saw in the 
outspokenness by President Ellen Johnson-Sirleaf, President 
Kufour of Ghana.
    You talked about the apparent split in Kenyan leadership 
between Prime Minister Odinga and President Kibaki. Well, that 
is a difference between people that like elections where they 
count the votes and people who do not like elections where they 
count the votes fairly. And that comes through again and again 
in the treatment of Zimbabwe.
    That is why I said that American diplomacy should be 
engaged much more assiduously in cultivating this emerging 
sensibility among African governments so that it has a broader 
consequence than just the way we look at the Zimbabwe crisis. 
The Russians and the Chinese do not think this is just about 
Zimbabwe. They think this is about the way the U.N. system will 
operate more generally, and we should see it that way too. We 
should be building coalitions with like-minded allies.
    Senator Isakson. Ms. Gavin, you made a comment about we 
should frame our efforts at mediation in the interest of 
restoration of rights of the people versus getting rid of 
Mugabe. I think that is kind of how I heard it. And you also 
said sanctions should be a means to an end, meaning mediation. 
It should be effective to bring about mediation.
    If, in fact, mediation could take place and if, in fact, 
there was some negotiation to get Mugabe to withdraw or to 
accede from power, would the army support a freely elected 
government, or is their loyalty so strong to him ideologically 
that they would try and keep it from happening?
    Ms. Gavin. That is a very important question I think, 
Senator Isakson. My sense, from talking to people on the 
ground, is that the security forces are not any more monolithic 
than the ruling party is. Certainly at the very top you have a 
set of hard-liners who see their fates as inextricably linked 
to that of President Mugabe, and to some degree these actors 
are sort of hostage to each other at this point.
    But if you look at the middle level and certainly the lower 
level of the security forces, you are dealing with masses of 
actors who have been struggling with the same economic 
circumstances as the rest of the Zimbabwean people and in many 
cases not getting paid, getting paid so little, given the 
stratospheric hyperinflation that they cannot feed their 
families. There is plenty of anecdotal evidence that the MDC 
got quite a few votes from people who work in the security 
sector in the March elections.
    So while I think that there are actors besides President 
Mugabe whose futures would probably have to be part of any 
negotiation who would be concerned about various guarantees for 
themselves, et cetera, I do not think it is necessarily the 
case that the entirety of the security forces would necessarily 
be a problem.
    Senator Isakson. So the loyalty is kind of at the top, and 
if in fact, you did have a restoration of rights for the people 
and a transitional way, the lower end of the security system 
could possibly help support a new government rather than 
actually trying to overthrow it.
    Ms. Gavin. I think that is true, and I think they would 
like a chance to see some economic stabilization just like any 
other Zimbabwean citizen so that they could have some security 
for their families. And they probably would like a chance to 
see their work reprofessionalized and be able to function like 
a professional and capable security service again.
    Senator Isakson. Thank you, Mr. Chairman. I apologize but I 
have got to run to a meeting.
    Senator Feingold. I understand.
    Senator Isakson. I thank both of you very much.
    Senator Feingold. Thank you, Senator Isakson.
    I thank the panel. I regret that we have to conclude this, 
but I have to proceed to yet another task Ms. Gavin sent me 2 
years ago--the CSIS HIV/AIDS Task Force. So your legacy 
continues. But this was an excellent panel.
    This concludes the hearing.
    [Whereupon, at 12:28 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Prepared Statement of Hon. Barack Obama, U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this important hearing on the 
crisis in Zimbabwe and the prospects for resolution.
    I find the recent events in Zimbabwe to be deeply disturbing and 
condemn the actions of President Robert Mugabe in the strongest 
possible terms. The United States and the international community must 
be clear, unequivocal, and united about the Government of Zimbabwe's 
illegitimacy and lack of credibility.
    For far too long, the people of Zimbabwe have suffered, living in 
fear and struggling to survive. Opposition supporters and leaders, 
civil society activists, and ordinary citizens are subject to 
harassment, torture, and murder. The economic catastrophe brought about 
by the Government of Zimbabwe has led to hyperinflation and shortages 
of food and fuel. The deliberate disruption of humanitarian operations 
by the regime has caused misery for the Zimbabwean people. The entire 
Southern African region is affected by the crisis, which is ruining the 
vision of a more prosperous, just, and stable continent.
    I am encouraged by the growing support of African leaders for the 
civil and political rights of the Zimbabwean people. The Governments of 
Zambia, Botswana, Tanzania, Angola, Senegal, Kenya, and South Africa's 
African National Congress (ANC), civil society leaders and trade unions 
have all denounced the Zimbabwean Government's repression. However, 
these parties must do much more to help prevent the crisis in Zimbabwe 
from escalating out of control. The Government of South Africa and the 
ANC, in particular, must recognize the need and call for the kind of 
diplomatic action that is necessary to pressure the Zimbabwean 
Government to stop its repressive actions.
    With the support of the international community, regional leaders 
should work toward an enforceable, negotiated political transition in 
Zimbabwe that would end repressive rule and enable genuine democracy to 
take hold. The United States, for its part, must tighten its existing 
sanctions, just as the Southern African Development Community (SADC), 
the African Union (AU), and the U.N. should take concrete steps to 
isolate Zimbabwean officials who continue to thwart democracy and 
undermine the rule of law.
    I will continue to call for an end to the repressive and divisive 
actions of the Mugabe regime so the people of Zimbabwe can pursue their 
hopes for legitimate political change and opportunity. I look forward 
to working with the committee to address this important issue.

                                  <all>

</pre></body></html>
